<html>
<title> - NEGOTIATIONS WITH IRAN: BLOCKING OR PAVING TEHRAN'S PATH TO NUCLEAR WEAPONS?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




  NEGOTIATIONS WITH IRAN: BLOCKING OR PAVING TEHRAN'S PATH TO NUCLEAR 
                                WEAPONS?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2015

                               __________

                           Serial No. 114-39

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-822 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          













                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Antony J. Blinken, Deputy Secretary of State, U.S. 
  Department of State............................................     5
Mr. Adam J. Szubin, Acting Under Secretary, Office of Terrorism 
  and Financial Intelligence, U.S. Department of the Treasury....    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Antony J. Blinken: Prepared statement..............     8
Mr. Adam J. Szubin: Prepared statement...........................    18

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    63
Written responses from the Honorable Antony J. Blinken to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    64
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    67
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    68

 
                  NEGOTIATIONS WITH IRAN: BLOCKING OR
                    PAVING TEHRAN'S PATH TO NUCLEAR
                                WEAPONS?

                              ----------                              


                        THURSDAY, MARCH 19, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 8:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order, and the 
committee here today will continue to evaluate the 
administration's nuclear diplomacy with Iran. That is the 
subject of the hearing today.
    Negotiators face a high-stakes deadline next week. We will 
hear the administration's case today. But it is critical that 
the administration hears our bipartisan concerns here.
    Deputy Secretary Blinken, this is your first appearance 
before the committee, and I congratulate you on your position. 
I wish you well.
    And after the hearing, I trust you will be in touch with 
Secretary Kerry, Under Secretary Sherman and others that are 
involved in the negotiating process to report on the 
committee's views and I think this is very important.
    This committee has been at the forefront of examining the 
threat of a nuclear Iran. Much of the pressure that has been 
brought on the Islamic Republic of Iran and that brought them 
to the table was put in place by Congress, and it was put in 
place over the objections of the executive branch.
    Now, that is the executive branch whether it was Republican 
or Democratic administrations, but it is the House of 
Representatives that has driven this process, and we would have 
more pressure on Iran today if the administration hadn't 
pressured the Senate to sit on the Royce-Engel sanctions bill 
that this committee produced and passed in 2013 and passed, by 
the way, unanimously--and passed off the House floor 400 to 20.
    So Congress is proud of this role and we want to see the 
administration get a lasting and meaningful agreement. But, 
unfortunately, the administration's negotiating strategy has 
been more about managing proliferation than preventing it, and 
a case in point that I bring up is Iran's uranium enrichment 
program--the key technology needed in developing a nuclear 
bomb.
    Reportedly, the administration would be agreeable to 
leaving much of Iran's enrichment capability in place for a 
decade. If Congress will be asked to roll back its sanctions on 
Iran, which will certainly fund Iran's terrorist activities 
when we roll back those sanctions, then there must be a 
substantial rollback of Iran's nuclear program.
    And consider that international inspectors report that Iran 
has still not revealed its past bomb work despite its 
commitment to those inspectors to the IAEA to do that, and the 
IAEA is still concerned about signs of Iran's military-related 
activities including designing a nuclear payload for a missile.
    Iran has not even begun to address these concerns and last 
fall over 350 members wrote to the Secretary of State 
expressing deep concerns about this lack of cooperation from 
Iran. How can we expect Iran to uphold an agreement when they 
are not meeting their current commitments?
    Indeed, we were not surprised to see Iran continue to 
illicitly procure nuclear technology during these negotiations 
or that Tehran was caught testing a more advanced centrifuge 
that would help produce bomb material quicker--a new grade of 
supersonic centrifuge right in the middle of this process.
    This was a violation of the spirit and, in my view, the 
letter of the interim agreement. Iran's deception is all the 
more reason that the administration should obtain zero notice 
anywhere anytime inspections on Iran's declared and undeclared 
facilities.
    You have to have a verification regime in this process that 
is going to work for us. And there is also the fact that limits 
placed on Iran's nuclear program as part of the final agreement 
now being negotiated are going to expire.
    They will expire, and that means the final agreement is 
just another interim step. What you call the ``final'' 
agreement is an interim step with the real final step being 
Iran treated as any other non-nuclear weapons state under the 
Nonproliferation Treaty, thus licensing it to pursue 
industrial-scale enrichment.
    With a deep history of deception, covert procurement, and 
clandestine facilities, Iran is ``not any other country.'' It 
is certainly not any other country to be conceded in an 
industrial-scale nuclear program.
    Any meaningful agreement must keep restrictions in place 
for decades, as over 360 Members of Congress, including every 
member of this committee, are demanding in a letter to the 
President this week.
    Meanwhile, Iran is intensifying its destructive role in the 
region. The Islamic Republic of Iran is propping up Assad in 
Syria while its proxy, Hezbollah, threatens Israel.
    Iranian-backed Shi'a militia are killing hopes of a 
unified, stable Iraq and last month an Iranian-backed militia 
displaced the government in Yemen, formerly a key 
counterterrorism partner to the United States.
    Many of our allies and partners see Iran pocketing an 
advantageous nuclear agreement and ramping up its aggression in 
the region as a result of the hard currency that they will have 
at their disposal as the sanctions are lifted.
    So this committee is prepared to evaluate any agreement to 
determine if it is in the long-term national security interests 
of the United States and our allies.
    Indeed, as Secretary Kerry testified not long ago, any 
agreement will have to pass muster with Congress. Those were 
his words. Yet, that commitment has been muddied by the 
administration's insistence in recent weeks that Congress will 
not play a role, and that is not right.
    Congress built the sanction structure that brought Iran to 
the table, and if the President moves to dismantle it, we will 
have a say.
    So I now turn to the ranking member, Mr. Eliot Engel of New 
York, for his opening remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this very important and timely hearing.
    Mr. Deputy Secretary, Mr. Under Secretary, welcome to our 
committee. We are grateful for your service and we look forward 
to your testimony and I want to congratulate both of you on 
your new positions.
    The chairman's remarks are very similar to mine. We have 
worked very hard on this committee to have bipartisanship 
because both the chairman and I agree that if there is one 
place where we need bipartisanship more than any other place, 
it involves foreign policy.
    And so wherever possible we try to talk with one voice, and 
I want to associate myself with the chairman's remarks. We have 
seen a lot of speculative reporting in the press about might or 
might not be included in the comprehensive nuclear deal with 
Iran.
    Today, we are going to send over a letter to the President 
signed by 360 Members of Congress in both parties, a majority 
of each party, talking about some of the things that we are 
concerned with and we would hope that we could get a prompt 
response from the White House.
    It is truly a very bipartisan letter expressing Congress' 
strong feelings about things that need to be in the agreement. 
I want to emphasize--re-emphasize what the chairman said. There 
really cannot be any marginalization of Congress.
    Congress really needs to play a very active and vital role 
in this whole process and any attempts to sidestep Congress 
will be resisted on both sides of the aisle. We have seen a lot 
of speculative reporting in the press about what might or might 
not be included in a comprehensive nuclear deal with Iran.
    We don't technically even know right now if there is going 
to be a deal, but if there is I think we would all be wise to 
review the details before passing judgment on whether it is a 
good deal or bad deal or simply a deal we can live with.
    I think it is safe to assume that we are not going to see 
what I would consider a perfect deal. I have said all along 
that Iran should have been required to freeze enrichment during 
the negotiations but they weren't and it is clear that a freeze 
is not on the table for a comprehensive agreement.
    At this stage, we need to focus on making the deal as good 
as it can be. I am hoping that our witnesses can shed light on 
a few key areas that, for me, could tip the scales between a 
bad deal and a deal that we might be able to live with.
    First, as part of any comprehensive agreement, we need 
total clarity about where Iran stands in terms of its ability 
to weaponize its nuclear material. How far along are they?
    Secondly, will the deal give us sufficient time to respond 
if Iran reneges and presses full throttle toward a nuclear 
weapon. Is a 1-year break-out period the time until Iran has 
sufficient enriched uranium to then build a bomb? Is that 
enough time to catch their violation and react?
    Next, how would a comprehensive agreement stop Iran from 
pursuing a nuclear weapon covertly if they make a decision to 
sneak out rather than break out? Iran's leaders don't deserve 
an ounce of trust. We need very strong safeguards.
    Lastly, how will we be certain that sanctions relief won't 
just open the faucet for funding terrorism or fueling the 
regime's already abysmal human rights record?
    In my view, these questions lay out clear markers for what 
we need to see. Here is the bottom line. If we say yes to a 
deal, will it be worth unraveling the decades of sanctions and 
pressure that the United States and our partners have built 
against Iran?
    But if we say no, would we be able to hold the sanctions 
coalition together, and if we maintain or even increase our 
sanctions, wouldn't Iran just move full speed ahead toward a 
bomb?
    I know these negotiations have gone on for months and 
months. I know the P5+1 is under intense pressure to produce 
something. But we cannot allow those factors to push us into a 
bad deal being sold as a good deal.
    The administration has argued that reaching a deal is the 
best chance to solve a nuclear crisis diplomatically and avoid 
another war in the Middle East, that dialing up sanctions at 
this stage would undermine the talks.
    And as I have repeatedly said, I am willing to see what is 
actually in the deal before passing judgment and I strongly 
urge my colleagues to do the same.
    But make no mistake, Congress will play an important role 
in the evaluation of a final deal. Again, I want to say that I 
will not stand by and allow Congress to be marginalized.
    Any permanent repeal of sanctions is by law Congress' 
discretion, and before we do that we must be completely 
convinced that this deal blocks all of Iran's pathways to a 
nuclear bomb.
    So I look forward to your testimony and hope we can have a 
frank discussion of these issues and, again, Mr. Chairman, 
thank you for calling this hearing today.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by senior 
representatives from State and from Treasury. Mr. Tony Blinken 
is the Deputy Secretary of State. Previously, he served as the 
assistant to the President and was principal deputy national 
security adviser.
    Mr. Blinken also worked as the Democratic staff director 
for the U.S. Senate Foreign Relations Committee, and just 
confirmed last December, we welcome him for his first 
appearance before this committee.
    Mr. Adam Szubin is the Acting Under Secretary for the 
Office of Terrorism and Financial Intelligence at the 
Department of the Treasury. He previously served as the 
director of Treasury's Office of Foreign Assets Control.
    We welcome him back, and without objection, the witnesses' 
full prepared statements will be made part of the record.
    Members here will have 5 calendar days to submit any 
statements to you or any questions and any extraneous material 
for the record. We'll ask you to please summarize your remarks, 
and Mr. Secretary, if you would begin.

STATEMENT OF THE HONORABLE ANTONY J. BLINKEN, DEPUTY SECRETARY 
               OF STATE, U.S. DEPARTMENT OF STATE

    Mr. Blinken. Mr. Chairman, thank you very much. It is 
pleasure to be here.
    I want to thank you, Ranking Member Engel and the members 
of this committee for having us here today and to give us this 
opportunity to discuss our efforts to reach a comprehensive 
solution to the challenge posed by Iran's nuclear program.
    As we speak and as you mentioned, Secretary of State Kerry, 
Secretary of Energy Moniz, Under Secretary of State Sherman are 
in Switzerland with our P5+1 partners negotiating with the 
Government of Iran over the future of its nuclear program.
    Our goal for these negotiations is to verifiably ensure 
that Iran's program is exclusively for peaceful purposes. To 
that end, we seek to cut off the four pathways that Iran could 
take to obtain enough fissile material for a nuclear weapon.
    There are two uranium pathways through its activities at 
the Natanz and Fordow enrichment facilities, a plutonium 
pathway through Iran's heavy water reactor at Arak, and a 
potential covert pathway.
    To cut off all of these pathways, any comprehensive 
arrangement must include exceptional constraints on Iran's 
nuclear program and extraordinary monitoring and intrusive and 
transparency measures that maximize the international 
community's ability to detect any attempt by Iran to break out 
overtly or covertly
    As a practical matter, we are working to ensure that Iran, 
should it renege on its commitments, would take at least 1 year 
to produce enough fissile material for one nuclear weapon.
    That would provide us with more than enough time to detect 
and act on any Iranian transgression. In exchange, the 
international community would provide Iran with phased, 
proportionate and reversible sanctions relief tied to 
verifiable actions on its part. If Iran were to violate its 
commitments, sanctions would be quickly reimposed.
    It is Iran's responsibility to convince the world by 
building a track record of verified compliance that its nuclear 
program is exclusively peaceful. That is why we are seeking a 
time frame for a comprehensive deal of sufficient length to 
firmly establish such a track record.
    Only then would Iran be treated like any other non-nuclear 
weapons state party to the nuclear Nonproliferation Treaty with 
all the rights but also all the obligations of an NPT state, 
including continued monitoring and inspections and a verifiably 
binding commitment to not build a nuclear weapon.
    The Bush administration first proposed this concept for 
Iran. Dozens of countries around the world responsibly adhere 
to the NPT. Much has been said recently about the fact that a 
deal with Iran would have an eventual end date.
    In fact, some constraints would be removed after a 
significant period of time, others would remain in effect even 
longer and some would last indefinitely, including a stringent 
and intrusive monitoring and inspections regime.
    Iran would have to fully implement the IAEA safeguards 
agreement and the additional protocol. Together, these give 
inspectors access to all declared nuclear facilities and to any 
suspected undeclared facilities.
    So even after some core constraints are completed, far more 
intrusive inspections will be required of Iran than before this 
agreement.
    Some have argued that Iran would be free to develop a 
nuclear weapon at the conclusion of the comprehensive joint 
plan of action if we achieve it. That is simply not true.
    To the contrary, Iran would be prohibited from developing a 
nuclear weapon in perpetuity and we would have a much greater 
ability to detect any effort by Iran to do so. Iran would be 
allowed to have a peaceful civilian nuclear program, 
continuously verified by the IAEA.
    Our goal is to reach an agreement on the major elements of 
the deal by the end of this month and to complete the technical 
details by the end of June. There has been a lot of reporting 
in the press about where we are. This is what I can tell you as 
of today.
    In Switzerland, the negotiations have been substantive and 
intense. We have made some progress on some of the core issues. 
Significant gaps remain on some of the other issues between 
what we and our partners in the P5+1 believe must be part of 
the comprehensive deal and what Iran is willing to do.
    While the negotiations are taking place, it is vital, in 
our judgment, that we avoid any actions that would lead the 
world to believe that the United States was responsible for 
their failure.
    Such actions include enacting new sanctions legislation 
now. New sanctions at this time, including through so-called 
trigger legislation, are unnecessary. Iran knows very well that 
if it refuses a reasonable agreement or reneges on its 
commitments, new sanctions can and will be passed in a matter 
of days.
    New sanctions now would be inconsistent with our 
commitments under the interim agreement. They would undermine 
our sanctions coalition. They would give Iran an excuse to walk 
away from the talks or take a hard line that makes an agreement 
impossible to achieve while blaming the failure on us.
    In our judgment, we also must avoid actions that call into 
question the President's authority to make commitments that the 
United States will keep. Negotiating with a foreign nation is 
the President's responsibility.
    If there is confusion on this basic point, no foreign 
government will trust that when a President purports to speak 
for our country, he actually does.
    In this case, such confusion could embolden hardliners in 
Iran, divide us from our allies, poison the prospects for a 
deal and make it much more difficult to sustain international 
support for the existing sanctions, never mind new ones, if 
negotiations collapse.
    That international support is critical to the success of 
the sanctions regime that Congress took such an important role 
in building. Up until now, we have kept other countries onboard 
despite the hardship it has caused some of them, in large part 
because they are convinced we are serious about reaching a 
diplomatic solution. If they lose that conviction, the United 
States, not Iran, could be isolated and the sanctions regime 
could collapse.
    Congress has played and will continue to play a central 
leading role in these efforts. Congressional legislation gave 
us the tools to get Iran to the negotiating table and, as has 
been noted, only Congress has the authority to lift sanctions 
as part of any comprehensive solution.
    Since signing the interim deal, we have been on the Hill 
dozens of times to update on the progress of the talks--in all, 
more than 200 briefings, meetings, hearings and phone calls.
    If we reach an agreement we will welcome intense robust 
scrutiny. We also will expect that any critics explain not only 
why the deal is lacking but also what would be a better 
alternative and how it could be achieved.
    Our nuclear discussions with Iran do not alter our 
commitment to the security of our allies in the region who are 
deeply affected by Iran's efforts to spread instability and 
support terrorism. That commitment will not change with or 
without a deal.
    We will retain the necessary tools and the determination to 
continue countering Iran's troubling behavior. Indeed, the most 
important thing we can do to keep Iran from feeling further 
emboldened is to deny them a nuclear weapon and we will 
continue to support those in Iran demanding greater respect for 
the universal human rights and rule of law that they deserve 
and we will continue to insist that Iran release Saeed Abedini, 
Amir Hekmati and Jason Rezaian and help us find Robert 
Levinson.
    Thank you very much.
    [The prepared statement of Mr. Blinken follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                              ----------                              

    Chairman Royce. Mr. Szubin.

STATEMENT OF MR. ADAM J. SZUBIN, ACTING UNDER SECRETARY, OFFICE 
OF TERRORISM AND FINANCIAL INTELLIGENCE, U.S. DEPARTMENT OF THE 
                            TREASURY

    Mr. Szubin. Thank you and good morning, Chairman Royce, 
Ranking Member Engel, distinguished members of the committee. 
It is a pleasure to be here today and thank you for the 
invitation.
    This is my first appearance, as you noted, before a 
congressional committee in my new role as Acting Under 
Secretary for TFI at the Treasury Department.
    In my time at Treasury, including 9 years leading the 
Office of Foreign Assets Control, or OFAC, I have devoted the 
majority of my working hours to building, honing and 
implementing sanctions on Iran--both executive sanctions and 
the strong congressional bipartisan sanctions that you all have 
enacted. So I am particularly appreciative of being able to 
testify here today on this vital issue.
    The global architecture of our sanctions on Iran is 
unprecedented both in terms of its strength and the 
international foundations that underpin it. Working together 
with our partners around the world and with Congress, we have 
assembled a coalition that has fundamentally altered Iran's 
economic posture.
    As a result, we today have a chance of resolving one of the 
world's most vexing and persistent security threats. At this 
critical juncture in the talks, it is important to note that 
Iran remains under massive strain and has no viable route to an 
economic recovery without negotiated relief from international 
sanctions.
    This strain is visible across every sector in Iran's 
economy. First, their financial lifeline--oil. In 2012, Iran 
was exporting about 2.5 billion--I am sorry, 2.5 million 
barrels per day of oil to some 20 jurisdictions.
    Today, Iran is exporting 60 percent less oil than just 3 
years ago to just six jurisdictions. The losses, of course, 
have been compounded by the steep drop in global oil prices 
such that Iran's chief revenue source is today bringing in less 
than one quarter of what it brought in for Iran just 3 years 
ago.
    Just as troubling for Iran is the fact that it can't freely 
access those revenues. It has a reduced stream of revenues 
that, thanks to Congress, are going into restricted accounts, 
either frozen or tied up in banks around the world.
    Foreign investment in Iran has dropped precipitously. From 
2004 to 2013, as foreign capital was pouring into developing 
countries, Iran saw an 80-percent drop in foreign investment.
    Iran's oil minister recently estimated that Iran's oil, gas 
and petro-chem sectors will need approximately $170 billion to 
recover. The Iranian rial has depreciated 52 percent since 2012 
and has lost 12 percent of its value just under the JPOA period 
alone as we have been negotiating.
    The IMF for this coming year projects that Iran's economy 
will enter stagnation, with GDP growth falling to .6 percent. 
This is the lowest projected rate of any country the IMF looks 
at in the Middle East and North Africa region, including 
countries like Afghanistan that sell no oil.
    Finally, Iran's banking sector remains isolated and holds a 
high proportion of nonperforming loans. As you can hear, their 
economy is under strain, but this sanctions pressure cannot be 
sustained without work.
    Accordingly, over the JPOA period we have worked very 
intensively to enforce our sanctions. In the past 15 months, we 
have targeted nearly 100 actors, individuals and companies who 
were either helping Iran evade sanctions or helping Iran 
conduct other misconduct.
    We have imposed nearly $\1/2\ billion in penalties on 
companies that were conducting illicit transactions under our 
Iran sanctions and we will not soften our enforcement of 
existing sanctions.
    Now, as we speak, negotiators are hard at work trying to 
secure a joint comprehensive plan of action. Regardless of 
whether or not these negotiations succeed, I want to assure 
this committee that the Treasury Department and the 
administration as a whole are prepared for whatever comes next.
    If we are able to secure a comprehensive understanding, we 
will structure nuclear-related sanctions relief in a way that 
is phased, proportionate and reversible. We will need to see 
verified steps on Iran's part before sanctions are lifted and 
we believe that powerful U.S. legislative sanctions should not 
be terminated for years to come so that we continue to retain 
important leverage years into a deal.
    Alternatively, if we determine that a comprehensive deal 
with Iran cannot be obtained, the administration, working with 
Congress, is prepared to ratchet up the pressure. Over the past 
decade, we have developed very subtle insights into Iran's 
financial flows, its economic stress points and how it attempts 
to work around sanctions.
    We stand ready to raise the costs on Iran substantially 
should it make clear that it is unwilling to address the 
international community's concerns. Of course, while we must 
prepare for every contingency, we remain hopeful that we can 
achieve a peaceful resolution to this serious and long-standing 
threat.
    Thank you again for inviting me to appear here today and I 
look forward to taking your questions.
    [The prepared statement of Mr. Szubin follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Szubin.
    If I could go to my first question here--it goes to the 
sunset. Deputy Secretary Blinken, a major concern here is the 
expiration date.
    In as little as 10 years, all of the restrictions and other 
measures that you are touting here today are going to come off 
and Iran's nuclear program is going to be then treated as 
though it was the equivalent of the Netherlands.
    So why 10 years? Does the administration believe or hope 
that the Iranian regime will have moderated within that time 
frame?
    Mr. Blinken. Thank you, Mr. Chairman.
    First of all, there is no agreement on the duration of 
various obligations. All of that is the subject of current 
negotiations. So whether some aspects are 10 years, more or 
less, that is all to be negotiated.
    I think looking at this as a sunset is not the accurate way 
to look at what we are trying to achieve. What we are proposing 
and seeking to achieve is a series of constraints and 
obligations.
    Some will end after a long period of time, others will 
continue longer than that and still others will be indefinite, 
in perpetuity. The bottom line is that even after certain 
obligations are completed by Iran, it cannot become a nuclear 
weapon state.
    It will be legally bound under the nonproliferation treaty 
not to make or acquire a nuclear weapon. There will be legally 
binding safeguards on material to verify and deter its 
diversion. It will have to sign and implement a comprehensive 
safeguards agreement and the additional protocol.
    Chairman Royce. But that is why we are here today. You are 
putting this stock in Iran's signature to the NPT and its 
safeguards agreement, right? They have had those same 
commitments. They have been violating those commitments for 
years.
    That is why this process. I would just--I would just point 
that out. And the other point I would make is that 10 years or 
whatever that time frame is, they are then going to be treated 
as any other non-nuclear weapon NPT state, and that means no 
sanctions, no restrictions on procurement, no restrictions on 
the stockpile or the number of centrifuges it can spend at that 
point, 10 years out, or on the purity level to which it may 
enrich uranium.
    And I will just give you an example of where this would put 
Iran. They would enrich uranium at that point to levels near 
weapon grade, I am presuming, claiming the desire to power a 
nuclear navy because that is what Brazil is doing. So I am 
going to assume that they are going to do the same thing there.
    And that would all be permissible. It would all be blessed 
under this agreement, as I read it, no matter who is in charge 
of Iran in 10 years.
    And that's why Ranking Member Engel and I have a letter 
going to the President, signed by over 350 Members of Congress, 
demanding that the verifiable constraints on Iran's program 
last decades, not, as being discussed, a shorter period of 
time. So I just want to make that point.
    Let me go to my next question, and that goes to the 1-year 
breakout. The administration has set a benchmark--a 1-year 
breakout period. But is a year sufficient to detect and then 
reverse potential Iranian violations and why not insist on a 
period of 2 or 3 years?
    Mr. Blinken. Mr. Chairman, we think that a 1-year breakout 
time not only is sufficient but, indeed, is quite conservative.
    We believe that with the verification and inspections and 
monitoring that we will insist on in any agreement that would 
give us more than enough time not only to detect any abuse of 
the agreement but also to act on it.
    If you look at what various experts have said, many have 
said that a far lesser period of time would be sufficient to 
detect and act on any violations.
    Chairman Royce. Well, let----
    Mr. Blinken. This is--let me also, just if I can just add 
to this very quickly, Mr. Chairman.
    One year is very conservative. First of all, that is the 
most--if everything went perfectly for Iran. Second, the idea 
that any country, including Iran, would break out for one 
bomb's worth of material is highly unlikely. Like I said, we 
are----
    Chairman Royce. Okay. But let me go to this question then. 
Will you insist that the IAEA inspectors have anywhere anytime 
access to all facilities in Iran including Revolutionary Guard 
bases, from what we know about what has gone on there, and will 
Iran have to satisfy all questions that the IAEA has regarding 
Iran's covert research on a nuclear warhead including access to 
key scientific personnel and paperwork?
    Mr. Blinken. So without going into the details because all 
of this is this still subject to negotiation, we will insist 
that the IAEA have the access is must have in order to do its 
job and to verify.
    Chairman Royce. Yes, I understand your perspective of what 
is necessary to do their job. But mine is a specific list of 
criteria based upon my discussions with the IAEA, and I want to 
make certain that those are found and then are followed.
    And then lastly, it seems the administration plans to push 
the Security Council to adopt a new resolution to basically 
bless this agreement and relax sanctions, but at the same time 
you are pushing off Congress.
    Why push for U.N. action but not Congress?
    Mr. Blinken. We are not pushing off either. I think, as you 
said and as Ranking Member Engel said, Congress will have to 
exercise its authority to lift sanctions at the end of an 
agreement if Iran complies and, indeed, keeping that until the 
end, until we see that Iran is complying, is the best way to 
sustain leverage.
    Chairman Royce. Well, our concern here is if you push us 
off for 10 years, let us say, in theory, and if this is 
consequential enough to go to the U.N. Security Council at the 
outset under a resolution under Chapter 7, which by definition 
deals with a threat to peace, breaches of the peace and acts of 
aggression, then it would certainly be consequential enough to 
be submitted to the Senate for advise and consent. That is the 
point I wanted to make.
    Mr. Blinken. So the Security Council--this is an 
international agreement. It is an agreement that would be made 
with the other members of the Security Council, with Iran.
    Under these circumstances, it would be normal for the 
Security Council to take note of any agreement and then to 
create a basis for lifting the U.N.-related sanctions.
    Chairman Royce. But let me----
    Mr. Blinken. Yes, Congress will eventually have to decide 
whether to lift U.S. sanctions.
    Chairman Royce. My time has expired, but suggesting that 
Congress has a role to play by voting on sanctions relief years 
from now once a deal has run its course, that to me is 
disingenuous. But that is my view of it.
    We will go to Mr. Engel for his questions. Thank you.
    Mr. Engel. Thank you, Mr. Chairman.
    Let me, first, also emphasize that the trepidation that all 
of us have about these negotiations involves, at least for me, 
what the chairman said, that any deal that would sunset in 10 
years or however much we were very, obviously, concerned about 
and I know you are well and we, obviously, want to push that 
back as much as we possibly can because we really just don't 
trust Iran.
    And I think the chairman is right on the mark in terms of 
our concern with the sunset in 10 years or so. Another thing 
that has bothered us, you know, and again, as the chairman 
mentioned, he and I had legislation which passed the House 2 
years ago by 400 to 20 and unanimously out of this committee, 
which involved strong sanctions, and had the Senate followed 
suit and been signed into law I think we would have been in a 
much stronger position now.
    But one of the things that is really annoying to all of us 
is that we are sitting and negotiating with Iran over its 
nuclear program at a time when Iran continues to be a bad actor 
all around the world.
    You take a look at capitals that Iran essentially controls, 
now Yemen being added to that--Baghdad, Damascus, Beirut. This 
is not a regime that looks like it wants peace. Iran continues 
to fuel terrorism around the globe.
    It is the number one, in my opinion, state supporter of 
terrorism around the globe. So I believe that a nuclear 
agreement should not whitewash the fact that Iran remains a 
destabilizing actor in the region and funds terrorism.
    Now, the Iranian Revolutionary Guard Corps theoretically 
could take advantage of any sanctions relief that results from 
an agreement between the P5+1 and Iran because money is 
fungible. So how could such relief be structured to minimize 
any benefits to the Iranian Revolutionary Guard Corps?
    Mr. Blinken. Thank you very much, Ranking Member Engel.
    First, let me just say we share your deep concerns about 
Iran's activities in the region--destabilizing activities, 
support for terrorism and, of course, its own abuse of human 
rights at home, which is why we will and we will continue to 
vigorously oppose those efforts.
    And, indeed, throughout the interim agreement we have 
pushed back very hard on proliferation activities, WMD-related 
activities, terrorism support activities, sanctioning 
designating individuals, intercepting cargoes, et cetera, and 
working with our partners as we have been for more than 6 years 
to build up their capacity.
    With regard to any money that Iran receives as a result of 
relief from sanctions, I would turn to my colleague to discuss 
this. But let me just say I think what we see is that Iran is 
in a very deep economic hole and a large part of the reason 
that Rouhani was elected as President was to respond to the 
desire of the people to try and get out of the hole.
    So in one instance at least we believe that a significant 
portion of any revenues they receive would go to trying to plug 
their economic holes at home.
    That said, you are exactly right. Money is fungible and 
presumably that would free up some resources for the IRGC. That 
said, we also believe that denying Iran a nuclear weapon is the 
single most significant thing we could do to prevent further 
emboldening Iran it its actions in the region.
    Mr. Engel. And let us me just say, before Mr. Szubin talks, 
that is precisely what we are concerned about because Iran is 
in a deep economic hole.
    By having an agreement and releasing that, helping them, so 
to speak, get out of that hole, we want to, obviously, make 
sure, and you do as well, obviously, to make sure that the 
safeguards are in there as well.
    That is what makes me nervous because once you lose that 
leverage it is very, very hard to get back. Mr. Szubin?
    Mr. Szubin. Yes. Ranking Member Engel, thank you and I will 
say as well that is a concern we have been keenly focused on.
    The truth is the size of the hole that Iran is in, across 
almost any indicator you look at, is far deeper than the relief 
that is on the table, even the substantial relief, should Iran 
make good on all of the commitments that are being set out by 
the negotiators.
    We are talking about a hole that could be described, in one 
sense, as a $200-billion hole, which are the losses that we 
assess they have suffered since 2012 due to sanctions.
    In just the energy infrastructure, as I mentioned during my 
opening statement, their minister came out recently and said 
they need $170 billion just to regain their footing in that 
sector alone.
    The average Iranian has seen steady decreases in their 
standard of living, decreases in their purchasing power, even 
since Rouhani came into office, even since the JPOA went into 
effect.
    And so it is going to be a tremendous effort, a years-long 
effort, for Iran to right itself, and that is not going to 
happen overnight.
    Finally, I just want to reiterate what Deputy Secretary 
Blinken said. None of our sanctions targeting the nefarious 
activities that you mentioned are going away. None of those are 
on the table for discussion.
    So with respect to the Quds Force interventions in Yemen 
and Syria, we--and Hezbollah, very notably, we will continue to 
pressure any forms of support that we see.
    Mr. Engel. Let me ask you one final quick question because 
you mentioned Hezbollah, and I want to say that we all agree 
that Iran continues to support terrorism and sow instability in 
the Middle East.
    However, the director of national intelligence did not 
include Iranian terrorism or Hezbollah or any terrorist threat 
for that matter in the 2015 worldwide threat assessment of the 
U.S. intelligence communities.
    Can you tell me why? That didn't make any sense to me. Or 
you can--we can talk and you can send me a letter about it.
    Mr. Szubin. Yes, I am happy to get back to you on that. But 
my understanding is, first of all, Hezbollah remains front and 
center in our concerns. I think the director was talking about 
the immediate front-burner concern that we have with ISIL and 
that was the focus of his remarks.
    But it remains a foreign terrorist organization. It remains 
very much in the spotlight of our efforts to counter it, to 
push back on it, to isolate it around the world.
    Mr. Engel. And could not exist if it wasn't for Iran?
    Mr. Szubin. That is correct.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Mr. Blinken, during your confirmation hearing in the Senate 
you had promised Senator Rubio and the Foreign Relations 
Committee that you and the administration would consult 
Congress on any policy changes the administration was seeking 
toward Cuba.
    That turned out to be a complete falsehood. I worry that 
the Cuba example was a deliberate attempt by the administration 
to keep Congress in the dark regarding the Castro negotiations.
    And why is this important? Not only because of the Cuba 
deal but of how that implicates the Iranian deal. Keeping us in 
the dark it foreshadows the administration's approach to 
Congress and keeping us out of the loop on the Iranian deal. 
The administration has made it clear that it does not want 
Congress to vote on the Iranian deal anytime soon.
    But you just said to Mr. Royce that the U.N. Security 
Council will be having a vote, a binding vote, on the Iranian 
deal. Just to make it clear, you will be going to the U.N. 
Security Council to ask for a vote on the Iranian deal--yes or 
no?
    Mr. Blinken. We will be going to the Security Council 
presumably, because this is an international agreement, 
implicating----
    Ms. Ros-Lehtinen. Yes?
    Mr. Blinken [continuing]. All the members of the Security 
Council to take note of the deal and if there are any 
requirements----
    Ms. Ros-Lehtinen. Vote on the deal?
    Mr. Blinken. If there are any requirements of the Security 
Council pursuant to the deal----
    Ms. Ros-Lehtinen. To vote?
    Mr. Blinken [continuing]. To make clear that it will make 
good----
    Ms. Ros-Lehtinen. Congress can wait for the U.N. Security 
Council.
    Mr. Blinken [continuing]. On its commitments just as 
Congress will have to vote and decide----
    Ms. Ros-Lehtinen. We have 10 years from now.
    Mr. Blinken [continuing]. On any lifting sanctions.
    Ms. Ros-Lehtinen. Sure. No problem. And Palestinian 
statehood--there have been reports last night that in order for 
President Obama to continue his temper tantrum toward Prime 
Minister Netanyahu, what we will be doing in the United Nations 
is push in the shadows for a vote on Palestinian statehood in 
order to pressure Israel to be at the negotiation table with 
the Palestinians.
    Is that true? Is that press report true?
    Mr. Blinken. No. The administration's support for Israel is 
absolutely unshakable. We have done more for Israel's security 
over the last 6 years----
    Ms. Ros-Lehtinen. Oh, that support is very clear. Thank 
you. Thank you. No, that support is very clear.
    Mr. Blinken [continuing]. Than any administration has.
    Ms. Ros-Lehtinen. Thank you. And I am going to ask you 
another question on Iran for a minute.
    But I wanted to ask Mr. Szubin, your Cuba sanctions 
regulatory revisions earlier this year took a very broad view 
of the administration's licensing authority under the Trading 
with the Enemy Act, and I fear that the administration is using 
Cuba as a test case, as I said, for normalizing relations with 
Tehran and will utilize its licensing authority to provide 
broad relief for Iran.
    Under the JPOA, the U.S. is committed to removing nuclear-
related sanctions on Iran. However, as the author of the Iran 
sanctions law, the concept of an exclusively defined nuclear-
related sanction on Iran does not exist in U.S. law because the 
sanctions are intertwined with Iran's human rights record, its 
ballistic missile program and its support for terrorism.
    So I ask you, Mr. Szubin, which sanctions will you seek to 
suspend and ultimately lift under a final agreement and will 
you come to Congress to ask for authorities before such action 
is taken?
    Mr. Szubin. Thank you, Congresswoman.
    With respect to the actions we took in the Cuba amendments 
amending our regulations, I will note that the licensing 
authority is one that has been drawn on by administrations, 
Democratic and Republican, over the last decade and I have been 
involved under both presidencies, and it is an authority that--
--
    Ms. Ros-Lehtinen. Thank you. We will leave--it is going to 
take a long time.
    Mr. Blinken, Iran has been cheating, skirting the rules, 
violating international agreements, you have heard, from both 
Mr. Engel and Mr. Royce on that.
    What mechanism do we have to enforce any violation? Will 
there be penalties imbedded in the nuclear deal? If you could 
be specific.
    Mr. Blinken. Thank you. First, I should note that the IAEA 
has said repeatedly that Iran has complied with its obligations 
under the interim agreement.
    Ms. Ros-Lehtinen. Is that all that the IAEA has said? Has 
the IAEA also not said that Iran is not complying and is not 
letting them in, as the IAEA has asked?
    Mr. Blinken. No. It has said that under the agreement Iran 
has complied. It has also said--you are correct--that outside 
of the agreement Iran, of course, is seeking to do whatever----
    Ms. Ros-Lehtinen. So you look at their reports and say--you 
cherry pick and you say, okay, the IAEA is happy with this?
    Mr. Blinken. No.
    Ms. Ros-Lehtinen. You should give the totality of what they 
have been saying----
    Mr. Blinken. No, no.
    Ms. Ros-Lehtinen [continuing]. And how frustrated that 
agency has been with Iran throughout all of these negotiations.
    Mr. Blinken. No, no. I want to be clear, to answer your 
question, that the IAEA said that with regard to its 
obligations under the interim agreement, Iran has complied.
    You are also absolutely correct that outside of the 
agreement, including the critical question of the possible 
military dimensions of Iran's program in the past or for that 
matter now, it has not complied with what the IAEA is seeking 
and, indeed, that will have to be part of any agreement.
    And as to enforcement, it is very straightforward. As the 
Under Secretary said, as I said, in the event Iran were to 
renege on any commitment it made the sanctions would snap back 
in full force.
    Ms. Ros-Lehtinen. And I am sure that Iran is just shaking 
at that because that is very----
    Mr. Blinken. That is why they are at the table.
    Ms. Ros-Lehtinen. Oh, yes. Absolutely.
    Chairman Royce. Thank you.
    We go to Mr. Brad Sherman of California, ranking member of 
the Asia Subcommittee.
    Mr. Sherman. We should remember why we are in this 
situation. The executive branch under the Bush administration 
refused to enforce sanctions and violated American statutes for 
the benefit of Iran for 8 continuous years.
    The Bush administration prevented Congress from passing and 
used all of its power in Congress to prevent us passing new 
statutory sanctions. Now, that doesn't fit with the image we 
have of President Bush until you realize that at the time the 
sanctions all focused on international oil companies, which was 
not President Bush's target of choice.
    Had we continued President Bush's policies--well, we should 
know that during the Bush administration Iran went from zero to 
5,000 installed centrifuges--had we continued those policies, 
Iran would have $300 billion more available to it in cash right 
now because we have frozen $100 billion, and $200 billion has 
been lost to Iran in lost oil sales.
    But it is not the executive branch but Congress that has 
had it right for the last 15 years, which is why I take such 
offense when I hear the administration say, Congress, if we 
have a view, we are interfering and undermining. When you read 
the United States Constitution you will see that when it comes 
to economic sanctions and international economics, all the 
power is vested in Congress except to the extent that the 
President negotiates a treaty that is ratified by the Senate.
    Yet, I fear that what the administration is doing is using 
foreign ropes to tie the hands of the United States Congress 
because the foreign minister of Iran was able to cite Article 
27 of the Vienna Convention on Treaties saying, well, the 
United States will be in violation of international law if 
Congress doesn't do whatever the President promises Congress 
will do.
    I would--and the administration feeds into that when a high 
administration official declares foreign policy runs through 
the executive branch and the President and does not go through 
other channels.
    I fear that we will have a situation where the executive 
branch comes to us and says, you have to take this action. You 
are prohibited from taking that action because you are going to 
hold the United States up to ridicule for being in violation of 
international law.
    I would hope that you would look at the memo issued by the 
Carter Department of Justice that stated Congress may enact 
legislation modifying or abrogating executive agreements, and 
that if that was formally turned over to the Iran delegation, 
that would get us support under Article 46 of the Vienna 
Convention on Treaties.
    I should point out for the record that in 2007, Senator 
Clinton introduced, with the co-sponsorships of Senator Obama 
and Senator Kerry, the Oversight of Iraq Agreements Act, which 
stated that any status of forces agreement between the United 
States and Iraq that was not a treaty approved by two-thirds of 
the Senate or authorized by legislation would not have the 
force of law and prohibited funding to implement that.
    For the record, because I just don't have time to give you 
at this moment, I would like you to explain whether under the 
standards of the Obama administration the introduction of that 
act by those three senators constituted an interference with 
policy undermining President Bush's policy, et cetera.
    But I want to focus on a particular question. There is a 
question here. I fear that you have misled this committee in 
telling us that once Iran has the rights of a non-nuclear 
state, subject to the additional protocol, that you will be 
able to stop sneak out because you have said first that, well, 
they can't develop a nuclear weapon because that would be 
illegal. That is a preposterous argument. Obviously, they are 
willing to break the law.
    And the next point is that you have conjured up this idea 
there will be inspections. The question is, inspections of 
suspected sites. There is nothing in the additional protocol 
that adds to the NPT. The NPT was in force and it took 2 years 
after it was widely suspected that Fordow was a secret site for 
the IAEA to get there.
    So why do you tell us that oh, this IAEA, it has worked 
fine for Japan and the Netherlands--it will work great for 
Iran--when it won't allow us to get in quickly to suspected 
sites? Mr. Deputy Secretary.
    Mr. Blinken. Thank you very much.
    First, if Iran makes an agreement it will make it with the 
full knowledge that if it violates the agreement there will be 
severe consequences.
    Mr. Sherman. I was talking about sneaking, not being 
detected. Secret sites.
    Mr. Blinken. The inspections regime that we will insist on, 
first of all, for any initial duration--let me finish, if I 
may, please--will be beyond that, that any country has had 
anytime, anywhere in the world.
    That will--from cradle to grave of the production 
progress--mines, mills, factories, centrifuge facilities. That 
will create a basis of knowledge of the people, the places, the 
documents, that will last far beyond the duration of any of 
those provisions.
    Then beyond that, its obligations under a safeguards 
agreement, under the additional protocol, under Modified Code 
3.1. All of those taken together will, with any other measures 
that we might achieve on top of that and those remain to be 
negotiated, give us the confidence that the inspectors will 
have the ability to detect in a timely fashion any efforts by 
Iran to break out of the agreement.
    Mr. Sherman. So you need an intrusive inspection regime, 
you will have it for a few years and then, for reasons you 
can't explain, the blindfolds will go on and we will hope that 
we can prevent sneak-out thereafter.
    I yield back.
    Mr. Blinken. The blindfolds won't be on. They will be off.
    Chairman Royce. Okay.
    So Mr. Dana Rohrabacher of California, chairman of the 
Subcommittee on Europe, Eurasia, and Emerging Threats.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. It does 
get a little tiring to keep being reminded that President Bush 
is responsible for all of our problems. After all of these 
years they are still blaming President Bush.
    Mr. Sherman. If the gentleman will yield. I blame the 
executive branch and I spent four of it blaming the current 
executive branch.
    Mr. Rohrabacher. Thank you very much.
    I am--are we actually more concerned about the mullah 
regime in Iran having possession of a nuclear weapon versus 
what we seem to be just talking about--is their ability to 
manufacture a nuclear weapon?
    Don't we see this--do you see that in this debate, Mr. 
Secretary, and shouldn't we be--I think, frankly, with Mr. 
Netanyahu's speech as well as what we have been hearing here, I 
think the American people are being lulled into a false sense 
of security--that if we just prevent them from being able to 
manufacture the weapon that these crazy mullahs aren't going to 
have their hands on the ability to have possession a nuclear 
weapon.
    Mr. Blinken. The issue is----
    Mr. Rohrabacher. You have to push a button on it.
    Mr. Blinken. I apologize. Thank you.
    Like it or not, Iran has mastered the fuel cycle and we 
can't bomb that away, we can't sanction that away and, 
unfortunately, we probably can't negotiate that away.
    So they have the----
    Mr. Rohrabacher. Negotiate what away?
    Mr. Blinken. The fuel--their mastery of the fuel cycle. 
They have the knowledge of how to put together a weapon.
    So the issue is whether the program that they have is so 
limited, so constrained, so inspected, so transparent, that as 
a practical matter they cannot develop material for a bomb, or 
if they did we would detect it and have time to do something 
about it.
    Mr. Rohrabacher. That is not my question. Whether they can 
manufacture it or not, couldn't they get one from Pakistan or 
from China or from Korea or perhaps somebody stole a couple 
nuclear weapons as the Soviet Union was collapsing?
    Mr. Blinken. Yes. No, your point is very well taken, which 
is exactly why, as a my colleague said, even if there is an 
agreement, the various sanctions and stringent efforts we are 
making around the world to prevent Iran from proliferating or 
from receiving the benefits of proliferation will continue.
    Mr. Rohrabacher. Well, the only--the only way we are going 
to prevent these bad guys from having the nuclear weapon--we 
keep saying Iran. We don't really mean Iran. The people of Iran 
are really nice people.
    In fact, I understand they like Americans more than just 
about any other country in the world. It is the mullah regime. 
It is these the bloody mullahs that are supporting terrorism 
around the world, that are repressing their own people.
    Isn't the real answer trying to make ourselves partners 
with those people in Iran who want a more democratic country, a 
more democratic country, and has not this administration passed 
up time and time again the opportunity to work with the people 
of Iran to free themselves from these mullahs?
    Mr. Blinken. Congressman, I think you are exactly right 
that the actions of the regime are the problem, whether it is 
destabilizing activities in the region, whether it is support 
for terrorist groups including Hezbollah and whether it is, 
indeed, their abusive human rights at home, which is exactly 
why across the board, whether it is standing up and supporting 
those who are trying get greater rights in Iran, whether it is 
working with our partners in the region to increase their 
defensive capacities, whether it is pushing back on 
proliferation and on support for terrorism through the actions 
we have taken, that is exactly why we are doing that and that 
is exactly why those actions will continue.
    Mr. Rohrabacher. Well, I would suggest--I would suggest 
that I give you an A+ in terms of being able to focus people's 
attention on these negotiations dealing with the ability for 
them to manufacture a weapon.
    I would give you an F- when it comes to whether or not we 
can try to get rid of the threat by helping the people of Iran 
institute a democratic government there.
    This administration from day one in order to--frankly, the 
irony of this is, I believe this administration is bending over 
backwards not to try to threaten the mullah regime in Iran in 
order to get a nuclear deal which will make no difference at 
all because it still leaves the mullahs with the right to own 
and possess a nuclear weapon that they didn't manufacture 
themselves, which leaves us vulnerable to these very same----
    Mr. Blinken. I want to assure you they won't have the that 
right, period.
    Chairman Royce. We go now to Mr. Albio Sires of New Jersey. 
He is the ranking member of the Subcommittee on the Western 
Hemisphere.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for being 
here.
    I think you can take back to the department how concerned 
this body is that we don't seem to be part of any of this 
negotiation and we don't seem--that we seem to be bypassed.
    I remember when the Secretary was here. We talked about 
Cuba, and I asked him point blank about negotiations. They said 
that nothing was going on in exchange for Alan Gross.
    Now we have a situation similar to what we had in those 
hearings. One of the questions that I have is, can you speak to 
how the U.N. Security Council resolutions are being handled in 
the negotiations?
    Because once these sanctions are lifted, I think it is 
going to be virtually impossible to reimpose them because I 
don't think Russia and China are going to go along with it. 
They have veto powers. So how are we handling this?
    Mr. Blinken. Thank you. First, on your first point, 
Congressman, I have to say having been part of this, you know, 
there have been by our count, since the interim agreement was 
signed, more than 200 briefings, hearings meetings, phone calls 
with Members of Congress on the ramifications.
    Mr. Sires. With all due respect, we don't get--you know, we 
don't get much on those briefings. That is like, you know, 
these classified briefings that we get--I can get more 
information on anything in my district than what I get here.
    Mr. Blinken. You will understand that in--while 
negotiations are going on it is difficult sometimes to provide 
all of the details. It is something that is going back and 
forth on a virtually continuous basis. That said, I would be 
happy to talk to you further about this.
    Mr. Sires. But the problem is some of this stuff leaks out 
and then we look like--the press comes to us and we look like 
well, we don't know what is going on with the administration. 
You know, I mean----
    Mr. Blinken. Don't always believe what you read.
    Mr. Sires. Yes, I know. I don't believe what I listen to 
when people come in front of me either, you know. Can you talk 
a little bit about the sanctions, about the----
    Mr. Blinken. Yes, absolutely. So, again, and I will also 
invite my colleague to do the same thing, just as with our own 
sanctions, with regard to U.N. sanctions, first of all, we 
would preserve sanctions related to the non-nuclear aspects of 
Iran's behavior.
    Second, any U.N.-related sanctions also would be--have to 
be lifted in a way that shows, first, Iranian compliance with 
various obligations under the agreement.
    So they too in some fashion would have to be sequenced 
depending on Iran's fulfilling its obligations. We want to see 
a demonstration that Iran is serious. But all of that, 
including the sequencing, is under negotiation.
    But Adam, do you want to add to that?
    Mr. Szubin. Only to add that you are absolutely right to 
focus on the ability to restore sanctions in the event of a 
breach. That is something that, obviously, is very much at the 
forefront of our mind when we look at any possible sanctions 
relief is, is it reversible.
    And it is a trickier question when you talk about U.N. 
Security Council resolutions where we are obviously not the 
only member of that council. But we are very focused on that in 
the negotiations to make sure that if there is a violation 
there isn't the ability for one country to stand in the way of 
snapping back those sanctions.
    Mr. Sires. Have you had these conversations with China and 
Russia, you know, on this issue?
    Mr. Szubin. Yes, absolutely. That is very much part of the 
conversations that we have among the negotiating partners as 
well as, obviously, the conversations we have with the 
Iranians, yes.
    Mr. Sires. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go now to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Iran has repeatedly violated its obligations under the 
Nuclear Nonproliferation Treaty. It has built secret nuclear 
facilities. It has illicitly procured nuclear materials. It has 
denied IAEA inspectors access to the suspected facilities.
    So isn't it foolish to trust them now? Wouldn't a bad deal 
be throwing Israel under the proverbial bus? And, because of 
Iran's intercontinental ballistic missile goals, placing the 
U.S. at great risk as well? Now, I know you are going to say 
something to the effect that we are not trusting or this is 
trusting and verifying, but there are a whole lot of us on both 
sides of the aisle who, clearly, aren't buying it.
    Mr. Blinken. Thank you, Congressman.
    You are exactly right. Iran has repeatedly violated various 
obligations, which is exactly why it is in the position that it 
is in now--that is, facing the isolation and the sanction of 
the entire world and exactly why it is at the table now trying 
to negotiate an agreement.
    Those violations are what led to our ability to impose the 
most severe sanctions on Iran of any country in history and 
convinced other countries to come along.
    Mr. Chabot. We are, clearly, concerned that we are going to 
end up in a bad deal. Let me go to the second question I have 
for you.
    President Obama, clearly, has disdain for the winner of the 
Israeli elections held this week. Maybe the only group I can 
think of that he might have more disdain for is the elected 
representatives of the American people--this Congress.
    Since Israel will be the most directly affected by a bad 
deal with Iran, how is the administration going to repair 
relations with our key ally in the region?
    Mr. Blinken. Congressman, in my judgment, no administration 
has done more for Israel's security than this administration. 
If you look at the measures we have taken, the steps we have 
taken to provide for Israel's security over the past 6 years, 
they are exceptionally extraordinary and, indeed, Prime 
Minister Netanyahu has called them such, and that will--that 
will endure.
    Mr. Chabot. That is the least credible answer I have heard 
all morning, that this--no President has done more for the 
American-Israeli relationship than this President.
    Mr. Blinken. No, that is not what I said.
    Mr. Chabot. That is----
    Mr. Blinken. I said for Israel's security.
    Mr. Chabot. Security, relations, whatever. This President--
there has been no President that has damaged relations between 
the United States and Israel more than this President.
    Let me go to my third question. One of the concerns about a 
bad deal with Iran has always been proliferation in the 
region--that there is a nuclear arms race with the Saudis, the 
Gulf States, Turkey and perhaps others developing enrichment 
programs and eventually nuclear weapons.
    There are indications that the Saudis in particular are so 
alarmed that a bad deal is in the cards that they are already 
moving in that direction. What is your response?
    Mr. Blinken. Thank you, Congressman.
    Well, of course, if there is no deal Iran could rush to a 
nuclear capacity and a nuclear weapon tomorrow, which I imagine 
is exactly what would spark an arms race.
    So, indeed, the best way to prevent countries from feeling 
the necessity to do that is to prevent Iran from getting a 
weapon. The model that is being set by this agreement, if there 
is an agreement, is hardly one that other countries would want 
to follow if they decided that they needed to acquire the 
capacity to build a nuclear weapon because the Iranian model is 
a decade or more of isolation and sanctions and, indeed, 
anything that emerges from this agreement will require such 
intrusive inspections, access and monitoring I doubt any 
country would want to follow that model.
    The answer is exactly what we have been doing, which is to 
do everything we can to prevent Iran from getting a weapon so 
other countries don't feel the need to do it and to build up 
their capacity to defend themselves.
    Mr. Chabot. Well, our concern, obviously, is that we are 
going to end up with a bad deal--they are going to get nuclear 
weapons and the other countries in the region are going to feel 
threatened. Then all the other countries are going to end up 
with them and Israel is right in the middle of that, and God 
help us if that is where we end up.
    My final question: What is the difference between the road 
that we traveled down with North Korea and we are now traveling 
down with Iran, other than Iran is a far more dangerous country 
than North Korea?
    There are a lot of us who believe that we have seen this 
movie before and we know how it is going to end.
    Mr. Blinken. Thank you. They are very different cases.
    The North Korean program was far more advanced. First of 
all, when the Clinton administration was in office, Iran, we 
believe, had the material for nuclear weapons and there is some 
analysis that suggests that it already had nuclear weapons 
before the agreed framework was signed. By the time President 
Obama came in, of course, North Korea had nuclear weapons.
    Iran has neither. It is not--doesn't have the weapons, 
doesn't have the material for the weapons. It hasn't tested 
and, of course, North Korea, as you know, has also tested. So 
they are in far different situations.
    The inspections regime that existed at various points for 
North Korea was far, far less than what Iran faces right now 
under the interim agreement and certainly far less than it 
would face under any comprehensive agreement.
    Mr. Chabot. Well, my time has expired. But, again----
    Mr. Blinken. And we have also taken lessons. I want to 
assure you we have taken lessons from that----
    Mr. Chabot [continuing]. There is great skepticism on both 
sides of the aisle here and, I believe, for good reason. I 
yield back the balance of my time.
    Chairman Royce. Mr. Ted Deutch of Florida, ranking member 
on the Subcommittee on the Middle East and North Africa.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks to you and 
Ranking Member Engel. Thanks to our witnesses, Deputy Secretary 
Blinken and Acting Under Secretary Szubin. It is great to have 
you both here in your new roles.
    Let me start with this. I understand that we are now 
approaching a deadline and I want to express my thanks, as I 
have every single time I have had the opportunity, for the 
focus on working to bring my constituent, Bob Levinson, home.
    But as we approach these last days, let me just say that 
raising the issue at this point can no longer suffice, and that 
with respect to Pastor Abedini and Amir Hekmati and Jason 
Rezaian and Bob Levinson, if anyone is to take Iran seriously, 
that there is any commitment that they can make that can be 
adhered to, then the best show of good faith that they can make 
would be to return those Americans. I urge you to make that a 
priority. That is number one.
    Next, I have been clear. I know we are not supposed to 
prejudge any deal but there are certainly things that would 
concern us in any deal that I think it is okay for us to 
address and I want to just go through a few of those.
    First, a couple of straightforward questions. Deputy 
Secretary Blinken, will a final agreement and the technical 
annexes and side agreements be made public? Will they be 
readily available to Congress and to the public?
    Mr. Blinken. Thank you.
    Can I just start by saying, first of all, we strongly, 
strongly agree with your statement about the American citizens 
who are unjustly imprisoned in Iran.
    I want to assure you this is something that we are working 
on virtually every day. The only issue that comes up regularly 
within the context of the nuclear discussions, apart from those 
discussions, is the--is our American citizens. We are working 
on it very, very vigorously. We want to bring them home and we 
very much share your commitment to do that.
    Mr. Deutch. Thank you.
    Mr. Blinken. With regard to whether the agreement will be 
made public, certainly, the core elements will. I don't know at 
this stage because we don't know exactly what form any 
agreement would take, whether certain pieces would be--would 
remain made classified and be subject to classified review, 
what parts would be public. I can't tell you at this stage 
because we don't know the exact----
    Mr. Deutch. The greater the transparency the easier it will 
be for people to----
    Mr. Blinken. I think we saw with the interim agreement that 
we reached that it was made public and Congress had full access 
to it.
    Mr. Deutch. Congress had full access to it. The American 
people didn't. Let me just go on.
    Next, again, just a couple of straightforward questions. 
Does Iran--Secretary Blinken, does Iran remained the world's 
most active state sponsor of terror?
    Mr. Blinken. Whether it is the most active, it certainly 
for sure in the very top percentile.
    Mr. Deutch. And is the administration in any way 
considering removing them from the state sponsor of terrorism 
list?
    Mr. Blinken. No.
    Mr. Deutch. Thank you.
    Now, when it comes to the issues that we are dealing with 
that concern me in any deal, one, we have talked about the 
number of centrifuges and the infrastructure. A question I have 
is whether the ultimate number of centrifuges is reduced from 
the close to 20,000 to 6,000 or 7,000 or 3,000, whatever the 
number is, what will happen to the rest?
    Will any of them be dismantled? Will they go into a closet? 
Will they go into an attic? Will they be readily available for 
Iran at the expiration of the deal?
    Mr. Blinken. All of that is subject to the negotiations. 
That remains to be determined. I think you are right to point 
in general to the centrifuges. Obviously, that is a key 
component. But it also important to understand it is not the 
only component.
    Mr. Deutch. I understand. I understand, and I only have a 
little time. But I would encourage--I would suggest that if the 
ultimate deal doesn't require that a single one of those 
centrifuges is dismantled, it is going to make it awfully 
difficult for a lot of us to be comfortable that this is a 
serious enough step to prevent them from breaking out.
    Next, I just--I think you can understand, and I am not 
going to have time to get to my other--so I will just focus on 
this. I think you can understand the frustration that we have 
when both you, Secretary Blinken and Mr. Szubin, both talked 
about phased, proportionate and reversible sanctions relief but 
then went on to acknowledge the plan to go to the United 
Nations Security Council and to make clear that at the U.N., 
Venezuela, Malaysia, Nigeria may get a chance to vote on this 
deal now but Congress, ultimately, will have a chance to vote 
on this perhaps 5, perhaps 10, perhaps 15 years in the future.
    That is what we are being told. I hope you can understand 
the frustration and how can--and the real question I have is 
how can the sanctions relief be reversible if the plan is to go 
to the United Nations to reverse all of the multilateral 
sanctions, leaving only the American sanctions in place?
    Mr. Blinken. Again, I just want to try to make it clear 
that this is, if it happens, an international agreement that 
has other parties to the agreement. That is done through the 
Security Council.
    The Security Council would take note of any agreement and 
it would make clear that it is prepared, once Iran demonstrates 
that it is meeting its commitments, which would be at some 
point in the future because there would be a series of 
commitments under the deal, at that point to suspend or lift 
any international sanctions.
    Our own sanctions, again, would be under our own discretion 
and ultimately Congress has to pass judgment on that.
    Mr. Deutch. And Mr. Chairman, if I could just ask to have 
Mr. Szubin provide to us, because I am out of time, provide to 
us after this hearing a breakdown to the extent that you have 
done it of the $700 million that has been released every--the 
money that has been released every few months under the interim 
deal, and if you have done analysis on a deal of what a final 
deal might look like of sanctions relief, to the extent that 
$10 billion, $20 billion, $50 billion of the frozen money was 
released all at one time where any that money in the case of 
the interim deal has gone in Iran, where it would go under 
the--under the permanent deal and whether it would simply wind 
up going to benefit the Revolutionary Guard, the military and 
their terrorist activities.
    I thank you and I yield back.
    Chairman Royce. Without objection, so ordered. And we go to 
Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, Section 1, 2 and 3 of the Atomic Energy Act, 
as you know, requires that all significant U.S. nuclear 
cooperation agreements must be approved by both houses of 
Congress.
    Last year, Congress approved two such agreements, one with 
South Korea and the other one with Great Britain, who are our 
allies. However, in this case, when we are dealing with the 
world's leading state sponsor of terrorism, the position of 
this administration is that that should not be subject to 
approval by the United States Congress.
    I don't quite understand that distinction. Can you explain 
that to me?
    Mr. Blinken. Thank you, Congressman.
    I think the issue is what is the best form of an agreement 
in order for us to have the flexibility that we need to make 
sure that Iran is living up to its obligations and to be able 
to reimpose sanctions quickly if it is not. We--what we are 
seeking is--and the issue here is really whether this is a 
legally binding agreement or not.
    If it is a legally binding agreement, it would be subject 
to the rules of international law on how you get into an 
agreement and how you get out of it, which can be quite 
burdensome.
    So having a nonbinding agreement allows us to have the 
flexibility we need if necessary to snap back sanctions 
immediately, not wait for international partners to agree or 
not agree.
    With regard to whether it is a treaty or not and so subject 
to the advice and consent of the United States Senate, as you 
know, the vast bulk of international agreements that we have 
made under Democratic administrations and Republican 
administrations in the nonproliferation area and the foreign 
policy area more generally in fact are not treaties and are not 
subject to the advice and consent of the Senate.
    And I can go through the list under the nonproliferation 
area. We have everything from the missile technology control 
regime, which has been very successful in creating voluntary 
export licensing around the world, the nuclear security 
guidelines----
    Mr. McCaul. And my time is limited, and I appreciate what 
you are saying. I just think we are treating our allies 
different from a state sponsor of terror and I think that the 
American people, through its representatives, should be 
weighing in this deal. But I know we disagree on that point.
    ICBMs--this concerns me greatly. There has been no--this 
has been off the table, not part of the discussions at all, and 
the intelligence community and the Pentagon in its annual 
report on military power of Iran have noted that by--as early 
as 2015 of this year they may have ICBM technology--missile 
ranges that could potentially reach as far as the United States 
of America.
    And then the Ayatollah, the Supreme Leader, says that to 
limit this program would be a stupid idiotic expectation and 
that the Revolutionary Guard should definitely carry out their 
program and should mass produce.
    Why in the world isn't this on the table and does that not 
concern you about their intent here?
    Mr. Blinken. Yes. The missile program is absolutely a 
concern which is, again, why we have been working very 
vigorously around the world to deny, where we can, Iran the 
technology for that program and to push back against 
proliferation.
    In that effort, whether there is an agreement or not, we 
will persist in those sanctions and the various measures we are 
taking will continue regardless of whether there is an 
agreement.
    The scope of this agreement, if there is one, is the 
nuclear program. That is what our partners have agreed to. That 
is what is being negotiated. It is not a missile agreement.
    Now, there are aspects of it that come into this that are 
critical in terms of Iran's capacity to make, potentially, a 
nuclear weapon to a missile and, indeed, we are focused on that 
because that does fall within the confines of what we are----
    Mr. McCaul. Well, because that is the delivery device for a 
nuclear warhead.
    Mr. Blinken. Exactly. Exactly.
    Mr. McCaul. And so they are not backing down on that, which 
kind of makes me question, you know, their whole good faith 
analysis here. You know, if I could just say, when I read their 
own words, President Rouhani, who you say is taking a different 
tack and trying to be a peacemaker here, says that in Geneva 
agreement world powers surrendered to the Iranian nation's 
will, and that is in his words.
    And then, you know, they said that the centrifuges were 
spinning and will never stop. When Prime Minister Netanyahu 
gave his speech at the joint session of Congress, Iran was they 
were blowing up a mock of the USS Nimitz in the Red Sea, 
simultaneously.
    I question the good faith here. You have an extraordinary 
challenge, sir, and I wish you all the best. But I cannot--I 
just have to question the good faith on the part of Iran.
    Mr. Blinken. Sir, you are exactly right. It is not a 
question of good faith.
    It is a question--and by the way, whether it is President 
Rouhani or the foreign minister or any others, it is not that 
we think these are good guys who like the United States.
    It is that there are some people who are somewhat more 
pragmatic about what Iran needs to do for its own interest in 
the future and they believe that negotiating an agreement and 
getting some relief from the pressure that they have been under 
is what makes the most sense for their country, again, not 
because they like us or have good intentions.
    The other thing I would say that I think is important is 
that there are abhorrent statements made on a regular basis by 
Iran's leaders on all sorts of issues. In some instances, 
though, some of these statements are made for domestic 
political purposes.
    We sometimes have a tendency to see Iran as the only 
country on Earth that doesn't have politics. In fact, it has 
very intense politics and there is a lot of politics going on 
right now between those in Iran who would want an agreement, 
again, because they believe it is in the interest of the 
country, and those who don't want one, and some of the 
statements you are seeing, as objectionable and as abhorrent as 
they may be, some of those designed for political consumption 
at home to push back against those who do not want an 
agreement. Thank you.
    Chairman Royce. I hear ``Death to America'' on an ongoing 
basis regardless of the politics and that is concerning for us.
    We go now to David Cicilline of Rhode Island. Mr. 
Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you very much 
for being here and for giving us your insight on this very 
important issue.
    I am hopeful that the ongoing negotiations will ultimately 
result in an agreement that we can get behind and I think, as 
our chairman and our ranking member said, many of us have a lot 
of questions about the details of a final agreement and in a 
letter I think we will express to you what some of those 
concerns are.
    As I listen to the--my colleagues today, you know, 
guaranteeing that actors to a negotiated agreement are going to 
behave in a certain way is always difficult and we have no 
guarantee of that.
    And so it seems to me what the goal of this agreement 
should be is to be sure that we set it out so that it is 
difficult for them to violate the agreement, that we make it 
certain that we can detect it if they do and that we have an 
opportunity to respond to it.
    I mean, that is really the best we can do other than 
imagining that we can control the decisions of lots of other 
people.
    And so with respect to that, last year the Pentagon's 
Defense Science Board released a report that found the U.S. 
Government mechanisms for detection and monitoring of small 
nuclear enterprises or covert facilities are ``either 
inadequate or, more often, do not exist.''
    So in that context, how will we know and what are we doing 
to ensure that we would learn if Iran was pursuing a covert 
program, particularly after the sunset of a comprehensive 
agreement, and will the additional protocols in the NPT address 
this?
    But isn't that a fair question to know? We are not 
particularly good at that from the sounds of it in general, and 
with respect to Iran in particular what are the protections?
    Mr. Blinken. Thank you very much, Congressman.
    Yes, I think you make a very important point and, indeed, I 
am well aware of the report by the Defense Science Board. We 
are factoring in the report's recommendations as we work on and 
think about any agreement with Iran.
    I think it underscores the absolute necessity of having the 
most intrusive significant monitoring access transparency 
regime anywhere, anytime, anyplace in the world, and in terms 
of what happens in perpetuity it underscores the absolute 
necessity of having at the very least the combination of the 
additional protocol, Modified Code 3.1, and a safeguards 
agreement.
    Those things taken together, the storehouse of knowledge 
that will be built up by the exceptional transparency measures, 
we believe that all of those things taken together will give us 
the ability to detect any efforts by Iran to break out or to 
sneak out.
    But I think the report underscores the absolute essential 
nature of those components of any agreement.
    Mr. Cicilline. Thank you. And would you speak for a moment 
about kind of what you see as the kind of scenario if no 
agreement is reached?
    There has been a lot of discussion about the urgency of 
enacting additional sanctions, which I think Congress would do 
immediately and the President would support. But to the extent 
that happens, do you foresee that that actually would prevent 
the development of a nuclear weapon?
    I mean, the goal here we shouldn't lose sight of is not 
just to impose pain on Iran but impose conditions such that 
they don't develop a nuclear weapon. That is the ultimate goal.
    And I am wondering if you would speak to what is the 
alternative of a good comprehensive agreement here. What do you 
likely see even if additional sanctions were imposed if these 
talks fall apart? Do we prevent a nuclear Iran in that 
scenario?
    Mr. Blinken. Well, I think it depends very much on how an 
agreement is not reached. That is to say, if it is clear at the 
end of this process that Iran is simply not able and will not 
make a reasonable agreement, then, clearly, that calls not only 
for sustaining the existing pressure but adding to it in an 
effort to get them to rethink that very unfortunate position 
and, indeed, to bear down on all fronts in its efforts to 
acquire technology for a nuclear program and the resources for 
a nuclear program. So that is where we would want to go.
    Now, if on the other hand, we are at the end of March very 
close, having gotten agreement on many of the key elements but 
not all of them, and because nothing is agreed until everything 
is agreed we can't put the whole thing together, then I can see 
a circumstance where it might be useful to take the time that 
we still have until June under the nature of the interim 
agreement that we signed. So we have to see exactly where we 
are.
    The third possibility, of course, is that for whatever 
reason we are perceived as having been responsible for the 
failure to reach an agreement or at least there is enough mud 
in the waters to create that impression, that--were that to 
happen, which absolutely cannot and must not happen, that would 
make it more challenging, not only to add new sanctions and add 
more pressure but just to sustain the pressure that we have 
because it is very important to keep remembering that this is 
not just about us.
    The power, the efficacy of the sanctions that Congress has 
produced and that we have been implementing is exponentially 
magnified by the participation of other countries around the 
world. If that goes away a lot of the power of the sanctions 
will.
    Mr. Cicilline. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Poe of Texas.
    Mr. Poe. I thank the gentlelady.
    I have a lot of questions and I think you can answer many 
of them with just a yes or no. They are not gotcha questions. 
But unless I ask you to explain the answer, don't explain the 
answer, if you would.
    The 10-year agreement or however many years it is going to 
be. Is the deal that the sanctions will be lifted--all of the 
penalties, I should say--after the agreement is over with 
whenever that is? With Iran, are the penalties coming to an 
end?
    Mr. Blinken. Congressman, it would be--it would be phased. 
That is, we would insist on Iran demonstrating compliance and 
then certain sanctions might be at that point suspended, not 
ended. And after still more compliance, at some point sanctions 
would actually be ended, assuming Congress agreed to end them.
    Similarly, on the international front with the U.N., we 
would be looking at demonstrated compliance by Iran and then 
suspension and then ending. And then if Iran didn't do what it 
was supposed to do or if it cheated or reneged, we would have 
snap back provisions both here and internationally.
    Mr. Poe. Okay. The purpose of this agreement is to prevent 
Iran from getting nuclear weapons. Would you agree that Israel 
is probably concerned, being a neighbor, about Iran getting 
nuclear weapons?
    Mr. Blinken. Yes.
    Mr. Poe. And the United States are both concerned about--
the United States as well?
    Mr. Blinken. Yes.
    Mr. Poe. The ICBM issue--that is not even being discussed 
as a part of this agreement, is it?
    Mr. Blinken. That is correct.
    Mr. Poe. And the Supreme Leader has said they want to get 
rid of Israel first and then take on us--calls us the Great 
Satan. And one way to get to us is the ICBMs, correct?
    Mr. Blinken. That is correct.
    Mr. Poe. ICBMs aren't needed to eliminate Israel. They have 
got other missiles that can already go and reach Israel. Is 
that correct?
    Mr. Blinken. That is correct.
    Mr. Poe. We are not talking about trying to prevent the 
ICBMs. All we are trying to do, if I understand the State 
Department's position, is to keep them from getting technology.
    Mr. Blinken. What we are trying to do apart from this 
agreement----
    Mr. Poe. Is that correct? We are trying to get them----
    Mr. Blinken. The contours of this agreement go to the 
nuclear program and to the United Nations Security Council 
resolutions regarding that program. That is what needs to be 
satisfied. Those are the terms of the negotiations that our 
partners sign on to.
    Mr. Poe. Okay.
    Mr. Blinken. Separate and apart from that, though, we are 
working very hard to prevent Iran from getting the technology.
    Mr. Poe. That is what I just asked you. It is a yes or no. 
We are trying to prevent them from getting technology. But 
isn't it true that Iran is pursuing the development of ICBMs in 
their country?
    Mr. Blinken. I am sure that is true, yes.
    Mr. Poe. So it is true. So they are building the missiles. 
We are not trying to stop them, except we just don't want them 
to get the technology from the North Koreans or the Chinese or 
Russians.
    Mr. Blinken. Well, that is why they need--that is why they 
need to develop it and they need to get technology from other 
countries with knowledge----
    Mr. Poe. Reclaiming my time. They are developing 
intercontinental ballistic missiles. Is that correct?
    Mr. Blinken. They are trying to do so, yes. That is 
correct.
    Mr. Poe. And we are not dealing with that issue, I don't 
think, at all.
    Mr. Blinken. We are, but just not part of this----
    Mr. Poe. Excuse me, sir. Excuse me.
    Mr. Blinken. Sorry, Congressman.
    Mr. Poe. We are trying to prevent them from getting nuclear 
weapons, which I think at the end of the day if this agreement 
is signed and delivered they will get them eventually and then 
they may have the capability to send them to us.
    I think this is a long-term threat to the world and 
especially the United States and Israel and peace-loving 
countries. Iran gets nuclear capability. Assume this. Would you 
agree that Saudi Arabia will get it next? Turkey will get it? 
Egypt will get it? And who else knows in the Middle East to 
balance the power over the Middle East?
    Mr. Blinken. Yes, it sigificantly increases the likelihood, 
which is why we are trying to prevent them from getting one.
    Mr. Poe. Just a couple of more questions.
    The 2015 Worldwide Threat Assessment put out by the 
Director of National Intelligence, you said that this report 
focused on ISIS.
    If it is a worldwide assessment--worldwide--wouldn't you 
think that it would mention Hezbollah? You think it might? 
Should?
    Mr. Blinken. Hezbollah is a foreign terrorist organization. 
It remains designated. It remains a focus of our activities.
    Mr. Poe. But it is not mentioned as a worldwide threat in 
this report. That confuses me. If the Federal Government comes 
out with a report and it reports on everything, and it is a 
worldwide threat assessment of terrorism, we leave off of the 
state sponsor of terrorism--Iran--and we leave off their 
puppet, who is causing mischief all over the world--Hezbollah--
that seems a little bit confusing to me.
    So would you recommend that maybe the intelligence agency 
go back and have an addendum to this worldwide report and add 
these other two organizations?
    Mr. Blinken. What I can tell you is, led by the 
intelligence agencies, we are pushing back every single day on 
Hezbollah's activities----
    Mr. Poe. So you think they ought to add to the report that 
Hezbollah and Iran are terrorism threats to the world?
    Mr. Blinken. Let me go back and look at the report.
    Ms. Ros-Lehtinen. Thank you. Thank you, Judge Poe.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair. Thank you, gentlemen, 
for being here today.
    Well, it does sound like the one thing that we all agree on 
is that Iran should not be able to get a nuclear weapon. I have 
a couple of questions. I want to--if I could just state them 
first and then you can answer.
    First--my first question is if there is no deal, how long 
would it take Iran to--at this point, do you think, to break 
out to have a nuclear weapon?
    It is interesting because I hear the frustration of so many 
of my colleagues about, you know, not trusting Iran. I think 
we--no one trusts Iran. But if we do not get a deal, we do not 
get a deal, is the alternative--the realistic alternative a 
military operation?
    What would that look like? And if there was a military 
operation, how long do you think that could delay Iran from 
getting a nuclear weapon and what do you think would be the 
interim collateral damage? I mean, what would you--I am sure 
you have discussed this.
    You know, what is the scenario of not having a deal? Now, 
and just to add to that, you have said, well, if there is no 
deal, then we are going to increase the sanctions. But I am 
assuming that you have made the calculation that we have taken 
them--that this is a time to get a deal. So you can respond to 
those thoughts.
    Mr. Blinken. Thank you very much, and I think that you 
raise very important questions.
    First, with regard to the break-out time, this is something 
we can, I think, best deal with in a classified setting. But 
what I can tell you broadly is this, that currently the break-
out time is a matter of a few months, if everything went just 
right.
    But, of course, we would--even under the interim agreement, 
we would see that immediately. But that is--that is where we 
are. So if there was no deal, that is where they would be.
    But, presumably, under various scenarios they would then 
seek to speed to increase the number of centrifuges, and 
increase the other capacity, move forward on Fordow, move 
forward on Iraq. And as a result of all of that over some 
period of period of time the break-out time would drop, 
presumably, even further.
    What are the alternatives? Well, I think that is a critical 
question because at the end of the day any agreement that is 
reached has to be evaluated, first of all, under the terms of 
the agreement. That is the most important thing. People will 
have to decide whether the agreement holds up, makes sense and 
advances our security.
    But I think it is also going to be very important for those 
who would oppose the agreement, if there is one, to say what 
the alternative would be and how it would be achievable. Those 
are critical questions because we are not operating in a vacuum 
and in an abstraction.
    So a lot, again, as I suggested earlier, depends on why 
there would be no deal. That is, if it was clear that Iran 
simply was not going to make an agreement and the international 
community recognized that, I think we would be in a position 
not only to sustain the sanctions that we have now but to 
increase the pressure and increase the sanctions.
    Now, however, if for whatever reason that didn't happen, if 
Iran started speeding to a weapons capacity and to a bomb, then 
a military option has always been on the table. It would remain 
on the table. If military action were taken, it could certainly 
set back Iran's program for some period of time.
    But, again, it is important to understand that because Iran 
has the knowledge and that we can't bomb that away, we can't 
sanction it away, that at some point they would resume their 
activities.
    They would probably go underground. We would lose the 
benefit probably of the international sanctions regime and 
pressure and Iran would be in a better position than it is 
today and, certainly, than it would be under an agreement.
    Ms. Frankel. And, if you could, because I am sure you have 
talked about this, what would be the ramifications especially 
in the region if all of a sudden there was a war with Iran? 
What would be the consequences, for example, to Israel? What 
would you expect?
    Mr. Blinken. Well, I think, first of all, if Iran were in a 
position where it was rushing to a nuclear weapon, many of the 
concerns that have been raised by other members of the 
committee in terms of what other countries in the region would 
do would be front and center.
    That is, it would be, I think, very tempting for other 
countries to feel that they needed to pursue a nuclear weapon 
to protect themselves. That is exactly one of the reasons we 
are trying to prevent Iran from getting a weapon. We do not 
want to see an arms race in the region.
    In terms of Israel, it faces an existential threat from 
Iran and, indeed, one of the reasons we are trying to prevent 
Iran from getting a weapon is in defense of our close ally and 
partner, Israel.
    Ms. Frankel. But would you--would you expect further acts 
of terrorism?
    Mr. Blinken. Oh, I would--I would expect that Iran 
unshackled with a weapon or speeding toward one, would feel 
further emboldened to take actions in the region, including 
against Israel.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Subcommittee chair, Mr. Duncan, is recognized.
    Mr. Duncan. Thank you, Madam Chair. And this has been a 
very informative hearing. Yesterday, we had a hearing on Iran 
as well. Mr. Deputy Secretary, do you believe Iran is present 
and active in the Western Hemisphere?
    Mr. Blinken. Yes.
    Mr. Duncan. Do you believe their influence is steady? Do 
you think it is increasing, as General Kelly may say, or do you 
believe it is not?
    Mr. Blinken. I think they are trying in various parts of 
the world including in our own hemisphere to position 
themselves and to take advantage of any openings that they 
have.
    Mr. Duncan. The State Department report that came out in 
2013 says that the Iranian threat in the Western Hemisphere is 
waning. Are you aware of that?
    Mr. Blinken. I am yes.
    Mr. Duncan. Okay. If Iran is--is Iran still on the state 
sponsor of terrorists list?
    Mr. Blinken. Yes.
    Mr. Duncan. Okay. So they are still aiding and abetting 
terrorist organizations like Hezbollah all over the world, 
correct?
    Mr. Blinken. Yes.
    Mr. Duncan. Okay. What is going to--what is going to change 
with this agreement with regard to their being on the state 
sponsor of terrorists list, as of the administration?
    Mr. Blinken. Nothing.
    Mr. Duncan. So we are negotiating with a country that is 
not willing to quit exporting terrorist items to terrorist 
organizations that could threaten the United States and its 
friends and allies, right?
    Mr. Blinken. So we are negotiating in order to deny them a 
nuclear weapon which would further embolden those activities. 
And at the same time, we are making it very clear that whether 
or not there is an agreement we will continue to be taking 
action against its efforts to do all of the things you just 
cited.
    Mr. Duncan. Iran has continually violated past obligations 
with regards to sanctions and sanctions relief and all of that. 
What is to make us think that they are not going to violate 
this?
    Mr. Blinken. Because of the penalties that they would have 
to pay. The reason that they are at the table now is because 
they violated----
    Mr. Duncan. But it is not legally binding on us. Do you--
will you all of a sudden think it is going to be legally 
binding on them?
    Mr. Blinken. I don't think----
    Mr. Duncan. How do you think they--how do you think they 
view that statement?
    Mr. Blinken. Oh, I think the issue is not whether it is 
legally binding. The issue is whether it is very clear, and it 
will be, that if they violate the agreement there will be 
serious consequences.
    It doesn't matter if that is legally binding or not. The 
sanctions will come back into full force and there will be more 
sanctions.
    Mr. Duncan. North Korea has the same sanctions and they 
violated those and they have the bomb now.
    Mr. Blinken. But, again, with regard to Iran the very 
reason they are at the table is because they spent years and 
years and years violating their obligations. Thanks to 
Congress, thanks to the administration, thanks to our 
international partners, we exerted significant pressure on them 
and now, faced with that pressure, they are seeking to make an 
agreement.
    Mr. Duncan. I think pressure works. I think the sanctions 
worked. I think Mr. Szubin talked about some of the 
repercussions of that.
    Now, let me move on. In April 2014, Secretary of State John 
Kerry said that the Obama administration will consult with 
Congress about sanctions relief contained in a final agreement 
and he said, well--and this is his quote: ``Well, of course, we 
would be obligated under the law,'' he said, adding ``What we 
do will have to pass muster with Congress. We well understand 
that.''
    Yet, the Secretary's testimony in the Senate last week, 
excuse me--Deputy Secretary Blinken said and Under Secretary 
Cohen indicated that the Obama administration would not submit 
a potential agreement to Congress for a vote. Instead, the 
administration will sign what is termed a political agreement.
    So What is the difference between what Secretary Kerry said 
in 2014 and what is being said by the administration now?
    Mr. Blinken. No, I don't there is a difference, sir. I 
think the Secretary is exactly right. First of all, in our 
judgment, at least, we have consulted extensively throughout 
the duration of these negotiations--as I cited earlier, more 
than 200 hearings, meetings, calls, briefings.
    If there is an agreement, obviously, we will go through 
that in great detail in Congress in open sessions and closed 
sessions, in meetings, in calls. And as we have been clear all 
along, the agreement at some point will call--will require the 
lifting of sanctions and only Congress can decide whether to do 
that or not.
    So Congress will have a vote and, indeed, keeping that 
Sword of Damocles hanging over the heads of the Iranians--that 
is, the knowledge that the sanctions have been suspended but 
not ended and that Congress has the authority to end them--we 
think will be leverage to make sure that they make good on 
their commitments.
    Mr. Duncan. Okay.
    Madam chair, I don't have a whole lot of other questions.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Duncan. A lot them I asked. Thank you. I yield back.
    Ms. Ros-Lehtinen. Because although there is a vote on and 
we have two votes, the subcommittee--I mean, the full committee 
will come back. But we would never break without the 
opportunity of recognizing Mr. Connolly for his 5 minutes.
    Mr. Connolly. I thank my friend.
    Unfortunately, I have to begin by chastising my friend. You 
know, my friend, the chair, who is truly my friend, referred to 
the President having a temper tantrum about Prime Minister 
Netanyahu, and Mr. Chabot, my friend from Ohio, and he is also 
my friend, said there is no President who has done more to 
damage the U.S.-Israeli relationship.
    I cannot let that go by. A foreign leader has insulted the 
head of state of the United States Government. It is not a 
temper tantrum and it didn't start with President Obama. It 
started with Bibi Netanyahu.
    You can decide for yourself whether it was appropriate for 
him to speak to a joint session. But the process is beyond 
dispute.
    It was an insult to this government. Friends don't act that 
way, and I would say to my friend, Mr. Chabot from Ohio, it 
would come as news to Shimon Peres, the outgoing President of 
Israel who gave President Obama the highest award that the 
Israeli Government can give, for his support of Israel.
    At some point, does the partisan rhetoric ever stop? Where 
are your loyalties with respect to the prerogatives of this 
government and our country? And the shameless way Mr. Netanyahu 
has conducted himself deserves reproach and I think the 
President has actually shown restraint.
    And I say this as somebody who has a 35-year record of 
unwavering support for Israel. I am not a critic of the Israeli 
Government. But I am a critic of how this Prime Minister has 
treated my President--everyone's President--and I cannot sit 
here and listen to the waving away of bad behavior that is an 
insult to my country.
    We have one President, whether you like him or not, whether 
you want to take political issue with him or not. Fair enough. 
That is fair game.
    But when a foreign leader insults him, that should not be 
fair game and that should never be apologized away because it 
damages relationships long-term. It puts a divide where there 
was never a divide in public opinion in my country and I worry 
about that long term. I hope you do too.
    Let me say, Mr. Deputy Secretary, it seems to me there are 
five issues that Congress has to be concerned about. There is 
the broad extensional question, are we better with a deal or 
without.
    I would argue that same Prime Minister of Israel has never 
supported any agreement with Iran even though we are where we 
are, and he would like zero centrifuges. He would like zero 
enrichment capability.
    He would like a complete roll back so that there is no 
nuclear capability, and so would I. But I don't know anybody 
who can achieve that, realistically, and if you feel that, if 
those are your goals, the only option is what has 
euphemistically been called the kinetic option if you are not 
willing to accept any nuclear capability and I am not sure the 
American people support that. I am not even sure the Israeli 
people support that. Would you agree with that analysis, Mr. 
Deputy Secretary?
    Mr. Blinken. Thank you. I would agree. As we discussed 
earlier, that Iran has knowledge of the fuel cycle. They know 
how to make a bomb if they choose to do it and we can't bomb 
that away. We can delay it. We can't eliminate it. It is 
knowledge.
    Mr. Connolly. Let me--let me say I think there are five 
issues. If we move on--okay. Let us accept that and so we need 
an agreement. We are going to get the best agreement or we need 
to seek the best agreement we can.
    I think with respect to my colleagues in Congress including 
myself there are five issues that have to be addressed and that 
the administration is going to have to convince us you have 
addressed efficaciously to the best of your ability to our 
satisfaction.
    One is what capability is left in place? Number of 
centrifuges, percentage of enrichment--something we can live 
with? Something we got to worry about? Two, cheating, and 
that--the inspection regime to me is all important. If there 
are holes in the inspection regime I don't see how you are 
going to get any confidence in the agreement.
    Thirdly, sanctions--how do we phase in the lifting of 
sanctions assuming an efficacious agreement and how 
expeditiously can we reimpose them? Our worry up here is that 
we might be okay but our allies may not.
    Fourth, the threshold time frame--there are a lot of--there 
is a lot of legitimate concern up here that it is too fast, 
that Iran can quickly rush to nuclear capability under the 
reported terms of the agreement.
    And, finally, the expiration of an agreement--the time 
frame for expiration. A lot of people are very concerned about 
the that, that it is almost an open invitation to a future 
Iranian Government to proceed.
    Thank you very much, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly, and it is not my 
temper tantrum to cut you off. We really are out of time.
    Mr. Connolly. I know. I know.
    Ms. Ros-Lehtinen. And to all the committee members and 
witnesses, we have two votes on the floor. We will recess 
briefly and then come back to get to the most amount of members 
that we can get to before our witnesses have to depart.
    And so with that, the committee stands in recess. Thank 
you.
    [Recess.]
    Chairman Royce. We will re-adjourn and go to Mr. Tom Emmer 
of Minnesota.
    Mr. Emmer. Thank you, Mr. Chair, and thank you to both the 
witnesses for being here today.
    Just a couple of questions because you pretty much have 
been running the range today in front of the committee. But 
first, Mr. Blinken, thank you for being here, again, and thank 
you for your service.
    Your opening remarks were assuring to somebody like me who 
wants to see the branches as they were constructed work the way 
they are supposed to and I just want to confirm, if you will 
bear with me.
    I believe it is Article 1 Section 8 says that it is the 
sole responsibility of Congress to enter into agreements with 
foreign nations, which would include treaties or agreements 
such as the one that we have been discussing, and I believe 
that you confirmed that again this morning that it will be 
Congress's obligation to finalize, ratify any negotiated 
agreement.
    Mr. Blinken. Because Congress imposed and legislated the 
sanctions on Iran, if those sanctions are ever to be lifted 
Congress must be the one to do it. Congress has the--only 
Congress has the authority to do that.
    Mr. Emmer. But that is what is already in place. That part 
aside, any agreement with the details that the administration 
is participating in the negotiations in right now it is 
Congress that not only--I think your words this morning will 
play a very important role--that was number one, which 
indicates to me there will be much communication once this 
framework, if it is reached by the end of this month--once that 
is reached there will be some significant communication.
    Mr. Blinken. Absolutely.
    Mr. Emmer. And after that, assuming that can you can arrive 
at the final details by the end of June, then I just want to 
make sure that I understand your position on behalf of the 
State Department is that Congress will have to approve or will 
not any final agreement.
    Mr. Blinken. No, Congressman, that is not our position. 
This would not be a treaty that would be subject to the advice 
and consent of the Senate.
    This would be an agreement that, obviously, as I said 
before, for its terms to be implemented, assuming that 
sanctions are to be lifted, Congress would have to play that 
role and it could decide whether or not to do that.
    And you are absolutely right that just as we have sought to 
consult fully throughout this process in hearings and briefings 
and meetings and phone calls, you are absolutely right that if 
there is an agreement in the coming weeks that we would consult 
intensely with Congress on that agreement. Every aspect of that 
agreement would be----
    Mr. Emmer. But all you--but all you are going to ask for, 
based on what you are testifying to this morning, is that 
Congress lift the sanctions. You are not going to ask for 
Congressional approval of the final agreement.
    Mr. Blinken. That is correct.
    Mr. Emmer. So if it is not legally binding then, as 
Secretary of State Kerry has discussed, what do you actually 
believe that you are getting out of it then? And let me just 
add to it because I am trying to be very measured.
    It disturbs me greatly to have people talk about giving an 
organization that is not interested in peace around the globe, 
that is actually and being an aggressor and trying to roil up 
problems--we are going to give them all kinds of hard currency. 
Explain to me how this is a good idea.
    Mr. Blinken. So two things. Thank you, Congressman. First, 
with regard to whether it is legally binding or not, if this is 
really a question of international law, first and foremost, if 
you make a legally binding agreement then it is subject to 
various provisions of international law which actually make it 
more difficult to do things we may have to do if Iran violates 
the agreement.
    There are all sorts of treaty law formalities that we would 
have to go through if we said Iran is violating the agreement.
    We would have to present a legally defensible reason to 
cease our implementation of our commitments under the 
agreement. We might get into a debate with our international 
partners if they did not agree. I am making----
    Mr. Emmer. Well, I am going to run out of time, with all 
due respect. I am going to run out of time. So I just--I think 
that this is the problem that the administration has had and 
now the administration and Congress are having is this 
breakdown in an understanding of respective positions in the 
process, and the idea that this administration is going to get 
approval from the U.N. Security Council as opposed to coming to 
Congress is not only disturbing, it is wrong, from my 
perspective.
    Mr. Blinken. Thank you, Congressman.
    Could I just mention--you know, again, I just want to be 
clear. We will have to go, if there is an agreement, to both. 
That is, there are sanctions that are pursuant to the United 
Nations Security Council that have been implemented by the 
Council so the Council will have the authority and will have to 
decide whether to lift them or not, suspend them or not.
    Similarly, our own sanctions have been imposed and 
legislated by Congress. Only Congress can decide whether to end 
them. And, as you know, the vast majority of the international 
agreements that we strike around the world, a key tool of our 
foreign policy and national security policy, are nonbinding.
    Mr. Emmer. Thank you. Mr. Chair, I am going to yield back.
    But I just want to make the comment that it is amazing to 
me that this administration apparently puts Congress and the 
U.N. on the same level in terms of who they are going to deal 
with.
    Chairman Royce. If the gentleman will yield. I am not sure 
it is on the same level because I think the U.N. vote will come 
immediately.
    Mr. Emmer. Again, I was trying to be measured.
    Chairman Royce. You were being measured and I appreciate 
that, Tom.
    I do think that it is going to be a considerable amount of 
time under the calculus that the administration is working 
under when they intend to come to Congress for that vote and 
that is very, very concern concerning. But I appreciate the 
gentleman raising this issue.
    We go now to Brian Higgins of New York.
    Mr. Higgins. Thank you. Mr. Secretary, is this the most 
complicated negotiation that the administration has been 
involved with internationally?
    Mr. Blinken. It is--I think the answer is yes. I am 
searching my mind to think of anything that could rise to a 
higher level of complexity. You know, arguably, the new START 
agreement was complicated. But I would I have to say this 
probably tops the list.
    Mr. Higgins. Yes. Now, the interesting thing is, you know, 
it is still an agreement. You hear varying reports saying that, 
you know, 90 percent is done and 60 percent is done. But, you 
know, the bottom line is that it is still very fluid.
    Mr. Blinken. That is correct.
    Mr. Higgins. And those issues that remain will always be 
the most critical issues because they are the most difficult to 
find mutuality on.
    Mr. Blinken. That is correct.
    Mr. Higgins. But, clearly, the issue of fuel and enrichment 
capacity are central to this and inspections and verification. 
How many pounds of enriched uranium is Iran though to have 
currently?
    Mr. Blinken. So they have a stockpile of low enriched 
uranium at about 3.5 percent that is, I recall, is about 7,000 
kilos. Is that correct?
    Mr. Higgins. And under the current draft framework, what 
would become of that 3.5 percent enriched uranium?
    Mr. Blinken. So you will understand I can't get into the 
details. This is all subject to negotiations. But one of the 
elements, and you are right to point to it, that would be 
important in figuring out their break-out time is the available 
stockpile of material that they have to work with.
    So centrifuges--the number of the centrifuges is one 
component. The configuration of the centrifuges is another. The 
stockpile is a third. And depending on how you put those 
elements together you limit their break-out time.
    But I can't tell you what the limitation might be under an 
agreement because that is all subject to the negotiation.
    Mr. Higgins. The proliferation of centrifuges 10 years ago, 
really, under Rouhani, there were probably, you know, less than 
200 centrifuges.
    Now there is over 19,000. Now we are talking about advanced 
centrifuges. We are talking about next generation centrifuges. 
We are talking about, as you mentioned in your response, a 
knowledge that you can't destroy.
    Is it--is it plausible, is it--is it realistic to accept 
the uranium--Iranian argument that they need so many 
centrifuges in order to sustain a civil peaceful nuclear 
program?
    Mr. Blinken. Well, look, obviously, we are highly skeptical 
of that argument. The fact of the matter is that they, clearly, 
had the military aspirations for their program at least through 
2003.
    That is, certainly, the assessment that our intelligence 
community made at the time. And, of course, so many aspects of 
this program strongly suggest that they are seeking or have 
been seeking a nuclear weapons capacity.
    That said, their argument, for what it is worth, is that 
they do want to build a nuclear power program for the country. 
They, obviously, have vast oil resources so why they would need 
it is a very good question.
    They say that they want to devote oil to exports. They want 
to have the nuclear program for domestic energy production. 
They talk about a post-carbon future, which other countries 
talk about.
    But all of that said, their activities, of course, suggest 
the opposite and if that is really what they were focused on, 
they could presumably, you know, buy nuclear fuel abroad 
instead of produce it.
    Mr. Higgins. Well, let me ask you this. What percentage of 
Iranian's domestic nuclear power is nuclear?
    Mr. Blinken. It is very de minimis but I will get you the 
exact number. But what they--what they purport to be looking at 
is a much more significant piece of their domestic energy 
program being provided by nuclear.
    That is the argument they make for why they would need a 
significant enrichment capacity in the future and, again, we 
are certainly skeptical of that, especially given their oil 
resources.
    Mr. Higgins. The--you know, it is just, you know, again, 
very, very difficult within the context of what Iran is engaged 
in today.
    Qasem Soleimani, head of the Quds Forces, is on the ground 
in Iraq today, probably, you know, directly leading the Shi'a 
militias in Iraq today to defeat ISIS.
    He saved Bashir al-Assad in the 11th hour to preserve Syria 
as a land bridge into Lebanon, to Hezbollah, which acts as a 
proxy for Iran.
    And yet here we sit with them face to face in negotiations. 
I do understand the complexity of diplomacy and the fact that 
you use diplomacy with your enemies more than your--but this is 
a very, very, very hard thing not only technically from the 
standpoint of a negotiator--and we do appreciate your efforts--
but politically as well. You know trust is a hard thing and 
America is an extraordinary superpower.
    But I do believe that even if, you know, in the end we have 
to exercise a military option because negotiations fail, I do 
think we have to demonstrate to the international community 
that every diplomatic avenue was exhausted before that can 
happen and that is, unfortunately, the responsibility of 
America as the indispensable world power.
    I yield back.
    Mr. Blinken. Thank you.
    Chairman Royce. I thank the gentleman for yielding.
    We are going to Mr. Ted Yoho of Florida.
    Mr. Yoho. Mr. Chairman, I appreciate it and I am not really 
sure where to start, I have so many questions, and just looking 
for clarification.
    I think the best way to start is that there was a quote 
from President Dwight Eisenhower 60 years ago when he announced 
the Atoms for Peace program: ``One lesson is clear. Civilian 
nuclear programs flourish only through cooperation and 
openness. Secrecy and isolation are typically signs of a 
nuclear weapons program.''
    I don't think that has differed and, you know, we look at 
Iran over the last 30 years and if you have you read, and I am 
sure you have, Ambassador John Bolton's book, ``Surrender is 
Not an Option,'' Iran has been moving steadily in this 
direction ever since then. They have played the cat and mouse 
game. They have lied and deceived.
    It is a pure game of sophistry, and sophistry, as we all 
know, is a well orchestrated deception, misdirection and we 
call that a lie, in the country. And I see that going on with 
our nuclear negotiations and I mean that in the sense that I 
think it is great that we are negotiating to prevent them from 
getting nuclear arms but I think we are all in agreement they 
are going to get nuclear arms.
    I have sat here for 2 years. I am going into the third 
year. We have had expert after expert after expert sitting 
where you are that said Iran within 6 months--that is when I 
first got here in January 2013--within 6 months to a year has 
enough fissile material for five to six bombs.
    And so that has been over a year so I can only assume, 
because the experts like you have told us, they are going to 
have that. And for us to say no, they are not, and then you 
look at Iran has prevented the IAEA to go in to inspect, we 
have got evidence that they have detonated a nuclear trigger in 
the region of Parchin but they won't let the IAEA go in.
    And going back to what President Eisenhower said is if they 
are not going to be forthright and honest and open, is it 
prudent for the United States of America to go forward with 
this versus backing up from the negotiation table and say, when 
you are serious, Iran, let us know and we will take the 
sanctions off.
    Mr. Szubin, you brought up that Iran is in a crisis mode. 
They are in a hole. It will take over a $160 billion to get out 
of it. Yet, yesterday on the Western Hemisphere meeting we had 
the experts again and the report from the State Department said 
that Iran and Hezbollah has got the most activity they have 
ever had in the Western Hemisphere since 2009.
    Iran is working with Iraq to beat ISIS so they are funding 
a war in Iraq. They have funded the takeover of Yemen, and I 
ask you is that the nation--is that the status of a nation that 
is in crisis and they are starving and they are on their last 
dollar?
    Would they be investing money into that or would they 
investing it into their own country? What are your thoughts on 
that?
    Mr. Szubin. Thank you, Congressman. If I could take the 
last part of your question and then----
    Mr. Yoho. Sure.
    Mr. Szubin [continuing]. Actually defer to my colleague.
    Mr. Yoho. And I have got another one I want to ask you real 
quick so go ahead.
    Mr. Szubin. Sure. So I did not say that they were on their 
last dollar and, obviously, we are talking about a 
sophisticated large industrialized country. What I talked about 
the were indicators of the economic strain on their society and 
the economic strain is massive.
    That doesn't mean that they don't have the thousands of 
dollars or even hundreds of thousands of dollars to provide to 
nefarious actors in their region or even in Latin America and, 
unfortunately, some of this activity, as dangerous as it is, 
comes cheap.
    Mr. Yoho. Right. And their goal is--again, we hear over and 
over again Fidel Castro met with the Ayatollah roughly 10 years 
ago, said we have a common enemy--that enemy is America and our 
goal is to bring them jointly together to its knees.
    I don't see that any different, and with the narrative 
coming out of there, the rhetoric you hear, it is like Chairman 
Royce says, you know, ``Death to America.''
    You can pick up a paper pretty much every week and you will 
find that in there. To move forward, thinking that we are 
stopping them--and Henry Kissinger said the move that we are--
we are moving to prevent proliferation to managing it.
    So I think we should come clean with the American people, 
say they going to have a nuclear weapon. I think that we should 
put emphasis on what are we going to do the day that they do 
have that and have our foreign policy because you are already 
seeing Saudi Arabia and Egypt wanting to run a nuclear program.
    Are we going to monitor them? Are we going to say, no, you 
can't? And then at what point do you intervene? And so I think 
all of this we are going through, I appreciate you going 
through it. But I think we are putting emphasis on something to 
say we are trying to prevent it and we know they are not going 
to prevent it.
    Mr. Blinken. Thank you very much, Congressman.
    I would say, first of all, as in many things and most 
things President Eisenhower was very wise----
    Mr. Yoho. Yes, he was.
    Mr. Blinken [continuing]. And so I think apply very 
appropriately to what we are looking at now, and it is 
precisely because of Iran's efforts to cheat and to dodge its 
responsibilities and dodge its commitments and proceed with a 
program that the world has called them out and the world has 
exerted extraordinary pressure on them and that is why they are 
at the table.
    And the only reason that they are there is in order to 
relieve some of that pressure and the fact that that pressure 
could be reimposed is the strong incentive they would have to 
make good on the agreement.
    And I would note again that under the interim agreement--
under the terms of the agreement they have made good on those 
commitments for its duration. Going forward, we have to have, 
and we will have for there to be any agreement, the most 
exceptional intrusive monitoring, access and inspection regime 
than any country has ever seen.
    That is the only thing that can give us confidence that we 
are not trusting Iran's word. We are looking at its actions and 
we will find out if it is violating its commitments.
    That is what this is about. At the end of the day, again, 
we have to deal with--and by the way, I should say we don't 
accept the proposition that they would get a nuclear weapon. 
The entire effort that we are making is to make sure that they 
don't.
    If there is no agreement, then there is a good chance that 
they will rush to a weapon or, certainly, rush to have the 
capacity to make one.
    Mr. Yoho. Does that make all those experts previously that 
said that they were going to have it wrong?
    Mr. Blinken. I think what they were--I would have to go 
back, Congressman, and see what--exactly what they said. I 
think what they were talking about was what is their capacity, 
where are they in terms of the capacity of producing a weapon 
should they choose to do it.
    I believe that is what they are talking about and what 
would the time line be. We are pushing that back. We are making 
sure that if they did decide to do that we would see it and we 
would be able to do something about it. That is what this is 
about.
    Mr. Yoho. My time has expired and I appreciate it. Thank 
you, Mr. Chairman.
    Mr. Blinken. Thank you.
    Chairman Royce. I thank the gentleman and I thank Secretary 
Blinken and Mr. Szubin. Thank you very much for your testimony 
here today.
    I also want to remind you about the points that we made 
here, the points that we made in the opening statements. I 
implore you to convey those views immediately, if you would, to 
Secretary Kerry and the negotiating team.
    You heard deep concerns over the sunset provision here, the 
fact it is only 10 years, over the question of verification of 
the agreement itself and whether at the--as part of this 
process whether Iran is going to be required to reveal its 
clandestine work that it has took on trying to develop a 
nuclear weapon in the past as part of any final agreement.
    You can't have real verification going forward unless you 
have that revealed to the IAEA. You heard our concerns about 
previous military activities on the part of the regime, 
previous testing, what actually went on at the sites that they 
won't give us access to, as well as Iran's vast ballistic 
missile program that is underway as we speak and about 
Congress' role in this.
    So, there is a number of the other issues raised as well so 
I hope you can convey that there are some profound bipartisan 
concerns that need to be heard, as a deal may be announced any 
day.
    And while our hearing was taking place there is news 
breaking from Switzerland that a draft is circulating there 
among the parties and in that draft Iran would have 6,000 
spinning centrifuges for the next decade.
    So I know the committee is frustrated to read the press 
about drafts circulating. It does says something about the 
administration's commitment to transparency when the press has 
the information and we are reading it off the news wire. So----
    Mr. Blinken. Mr. Chairman, just on that point----
    Chairman Royce. Yes.
    Mr. Blinken [continuing]. My understanding is that there is 
no draft--that that report is erroneous and, indeed, our 
spokesperson clarified that.
    Chairman Royce. That is good news. So we appreciate that.
    Mr. Blinken. Thank you.
    Chairman Royce. So when there is a draft, please share it 
with the members of this committee and of the Congress.
    We thank you again for your testimony, and for now, we will 
stand adjourned.
    Mr. Blinken. Thank you, Mr. Chairman.
    [Whereupon, at 11:07 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
                               
                               [all]
</pre></body></html>
